<html>
<title> - [H.A.S.C. No. 112-6] NATIONAL DEFENSE AUTHORIZATION ACT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                          [H.A.S.C. No. 112-6]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2012

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

             BUDGET REQUEST FROM THE DEPARTMENT OF DEFENSE

                               __________

                              HEARING HELD

                           FEBRUARY 16, 2011


                                     
[GRAPHIC] [TIFF OMITTED] CONGRESS.#13

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES





                  U.S. GOVERNMENT PRINTING OFFICE
64-862                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     KATHY CASTOR, Florida
BOBBY SCHILLING, Illinois            BETTY SUTTON, Ohio
JON RUNYAN, New Jersey               COLLEEN HANABUSA, Hawaii
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
               Jenness Simler, Professional Staff Member
                Michael Casey, Professional Staff Member
                     Megan Howard, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, February 16, 2011, Fiscal Year 2012 National Defense 
  Authorization Budget Request from the Department of Defense....     1

Appendix:

Wednesday, February 16, 2011.....................................    57
                              ----------                              

                      WEDNESDAY, FEBRUARY 16, 2011
FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF DEFENSE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Gates, Hon. Robert M., Secretary of Defense, U.S. Department of 
  Defense; accompanied by Robert F. Hale, Under Secretary of 
  Defense (Comptroller) and Chief Financial Officer, U.S. 
  Department of Defense..........................................     4
Mullen, ADM Michael G., USN, Chairman, Joint Chiefs of Staff.....     8

                                APPENDIX

Prepared Statements:

    Gates, Hon. Robert M.........................................    65
    McKeon, Hon. Howard P. ``Buck''..............................    61
    Mullen, ADM Michael G........................................    75
    Smith, Hon. Adam.............................................    63

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mr. Bartlett.................................................   100
    Ms. Bordallo.................................................   104
    Mr. Coffman..................................................   112
    Mr. Conaway..................................................   111
    Mr. Franks...................................................   109
    Mr. Griffin..................................................   112
    Mr. Heinrich.................................................   105
    Mr. Johnson..................................................   108
    Mr. Kline....................................................   108
    Mr. McKeon...................................................    99
    Mr. Miller...................................................   105
    Mr. Palazzo..................................................   112
    Mr. Ruppersberger............................................   106
    Mr. Shuster..................................................   110
    Mr. Smith....................................................    99
    Mr. Smith on behalf of Ms. Giffords..........................   100
    Ms. Sutton...................................................   109
    Mr. Turner...................................................   106
    Mr. Wilson...................................................   106
    Mr. Young....................................................   113


FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF DEFENSE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Wednesday, February 16, 2011.
    The committee met, pursuant to call, at 10 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Good morning, ladies and gentlemen. Thank you 
for joining us today as we consider the President's fiscal year 
2012 budget request for the Department of Defense.
    On Monday I had the opportunity to sit down with Secretary 
Gates to discuss this request. Based on the information I 
received, I am pleased to see that the budget continues to 
support our military men and women fighting in Iraq, 
Afghanistan and elsewhere. The budget provides much needed 
increases in several key areas such as military personnel and 
missile defense.
    I am also pleased that the Department is taking our 
Nation's financial position into account and has identified 
savings from lower priority programs and efficiencies that can 
be reinvested into force structure and modernization. As 
chairman, I, too, am concerned that every dollar be invested in 
core missions of the Department. Now it will be up to us, the 
members of the Armed Services Committee, to take up this 
proposal and scrutinize it with a fine-tooth comb.
    We must ensure that every dollar is spent on the right 
equipment, training and support needed by our troops, their 
families and the Nation's defense. Understandably, there will 
be winners and losers in this process. Tough choices must be 
made, but I will not support initiatives that will leave our 
military less capable and less ready to fight.
    In the request before us, most concerning is the reduction 
of an additional $78 billion from the Department's funding top 
line, including a $13 billion cut in 2012, ultimately leading 
to zero percent real growth in the outyears. Much of this 
savings appears to be generated with the reductions to Army and 
Marine Corps end strength in the 2015 to 2016 timeframe. The 
decision to reduce end strength seems premature given the 
uncertainty in predicting the full range of force and manpower 
requirements in Afghanistan after 2014.
    Furthermore, while some claim the reductions are not 
budget-driven, I note that the savings from these reductions 
were included in the Future Years Defense Plan even before the 
Marine Corps completed its force structure review and before 
the Army had even begun one. Both services have borne the brunt 
of two wars for the past decade, and neither has reached its 
objectives for Active Component dwell time of 1 to 3. I cannot 
in good conscience ask them to do more with less.
    There are additional proposals that immediately warrant 
special scrutiny, like the Expeditionary Fighting Vehicle, for 
which an unfulfilled requirement remains. We must understand in 
greater detail how the Department proposes to address this 
capability gap before we can support abandoning a $4 billion 
investment we have already made.
    On a slightly different note, I would be remiss if I did 
not acknowledge that the new Congress must finish work on 
defense appropriations legislation that was left unfinished in 
the 111th Congress. I have concerns about the implications to 
our troops of funding the Department of Defense at fiscal year 
2010 funding levels in a yearlong continuing resolution [CR]. 
Therefore, I am pleased that the House has taken up a defense 
appropriation for fiscal year 2011 this week. While I am 
disappointed there were not higher funding levels for defense 
in this legislation, I support all efforts by this Congress to 
avoid crippling the Department with a continuing resolution.
    I would like to conclude by welcoming our witnesses, the 
Honorable Robert M. Gates, Secretary of Defense; and Admiral 
Michael G. Mullen, Chairman of the Joint Chiefs of Staff.
    I look forward to continuing an open dialogue with you on 
these issues.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 61.]
    The Chairman. Now I will turn to my colleague and good 
friend Ranking Member Smith for his opening statement.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    Welcome Admiral Mullen, Secretary Gates, Secretary Hale. I 
appreciate you being here.
    And I want to begin by echoing the chairman's last comment 
there about the need to pass a 2011 defense appropriations 
bill. You all have done an excellent job of explaining to us 
just how hamstrung you are by having to live with the CR for 
the last, I guess it has been, almost 5 months now, the impact 
that has. And I would urge all Members here to talk with folks 
at the Department of Defense to get a full understanding of 
just how that undermines our ability to carry out our national 
security requirements, and how it even reaches over and 
potentially impacts what our troops are doing in Afghanistan 
and Iraq. A critical issue to get an appropriations bill done 
so we are not operating with the CR.
    And on this budget I want to congratulate the Secretary and 
the Department of Defense for again, you know, making sure that 
they provide our troops with the equipment and the support they 
need to do the missions that we all have asked them to do. And 
compliments to this committee as well. Through the years they 
have also stepped up to that task, particularly as the wars in 
Iraq and Afghanistan required much greater speed in meeting 
those needs. This budget, I think, again reflects that top 
priority: Make sure our troops get the equipment and support 
that they need.
    I also feel that this budget does a good job of trying to 
confront the budget realities that we are all aware of. I took 
a very hard and close look at the Department of Defense across 
the board to try to find savings and efficiencies, places where 
we can do better with less money. We absolutely can do that.
    And I think that is the most critical point that I want to 
make. Simply spending money doesn't make us safer. We have to 
make sure that that money is spent well and efficiently, and I 
don't think there is anyone who would disagree, looking back at 
the last 15 years and some of the decisions that have been 
made, with the notion that we can do better, that we can get 
more for the money that we are spending, particularly when you 
look at the acquisition and the procurement process.
    Again, I want to compliment this Secretary of Defense and 
his team for really taking a hard look at some of the lessons 
that we have learned through systems like Future Combat 
Systems, the F-35, other programs that have been more expensive 
than we would have liked. I think we have learned a lot, and I 
think we are moving forward in a very positive direction.
    And we also have to remember, as we look at this budget, 
two other important factors. The defense budget has grown 
enormously: 2001, in current dollars, it was $316 billion; it 
went all the way up to 708-. So we have had enormous growth, 
and we now need to figure out how to manage that.
    And we also need to be mindful of the fact that a strong 
national economy is critical also to our national security. An 
out-of-control deficit jeopardizes that economy. So we have to 
try to make sure that we can live within our means and do the 
job that we all have been asked to do. And I appreciate the 
hard work that has been done on that.
    I want to just add one specific comment before I close. 
That is the importance going forward of stability operations 
and understanding sort of our broad national security 
interests. I think we have learned in Iraq and Afghanistan that 
development programs can be every little bit as important as 
military programs in creating a stable and secure environment 
that protects our interests. And I know the Secretary has 
spoken out strongly about the need not just to have a strong 
military, but also to have a strong State Department and a 
strong whole-of-government approach as we go forward and try to 
figure out some of these stability operations. So I appreciate 
your leadership on that and believe that those two will be 
important issues.
    With that, I look forward to your testimony.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 63.]
    The Chairman. Before we begin, let me comment that we do 
have a full crowd here today, and I notice there are people out 
in the hallway that would like to be in here, so I would 
request that anyone who disrupts this hearing be removed by the 
Capitol Police. This includes outbursts and holding signs.
    This is a very important hearing and the decorum should be 
maintained, and I would appreciate that that be held that way. 
We will have no--I have a very low tolerance level.
    Let me, Mr. Secretary and Admiral, Chairman, let me thank 
you, to begin with, for your many years of service, both of 
you, to the country, and we all appreciate greatly the efforts 
and the things that you are doing. I know that you are in a 
very, very tough job, and I just want to, at the outset, let 
you know how much every member of this committee appreciates 
your service to the Nation.
    Mr. Secretary.

 STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE, U.S. 
  DEPARTMENT OF DEFENSE; ACCOMPANIED BY ROBERT F. HALE, UNDER 
SECRETARY OF DEFENSE (COMPTROLLER) AND CHIEF FINANCIAL OFFICER, 
                   U.S. DEPARTMENT OF DEFENSE

    Secretary Gates. Mr. Chairman, Mr. Smith, members of the 
committee--he doesn't get to talk very much anyway.
    Mr. Chairman, Mr. Smith, members of the committee, I would 
like to start with a few words about Congresswoman Giffords, 
who, of course, should be with us today were it not for the 
tragic and senseless attack in Tucson last month.
    I have enjoyed working with Congresswoman Giffords in her 
capacity as a member this committee. She is a strong supporter 
of the national defense and cares deeply about our troops and 
their families, and she has pursued her oversight 
responsibilities with dedication.
    Our thoughts and condolences continue to be with the 
families and victims of that attack. We send our best to the 
Congresswoman's husband, Navy Captain Mark Kelly, for his 
upcoming space shuttle mission and as he helps Mrs. Giffords 
through her recovery. We will miss Representative Giffords' 
contributions today and in the weeks and months ahead, and we, 
in the Department of Defense, wish her a speedy and full 
rehabilitation.
    I appreciate the opportunity to appear before you to 
discuss the President's budget request for the Department of 
Defense for fiscal year 2012, my fifth and final budget 
testimony for the Department of Defense before this committee.
    I want to thank the members of this committee for your 
support of men and women in uniform serving in a time of war. I 
know you join me in doing everything to ensure that they have 
all they need to accomplish their mission and come home safely.
    The budget request for the Department of Defense today 
includes a base budget request of $553 billion and an Overseas 
Contingency Operations request of $117.8 billion. These budget 
decisions took place in the context of a nearly 2-year effort 
by this Department to reduce overhead, cull troubled and excess 
programs, and rein in personnel and contractor costs, all for 
the purpose of preserving the global reach and fighting 
strength of America's military in a time of fiscal stress for 
our country.
    In all, these budget requests, if enacted by Congress, will 
continue our efforts to reform the way the Department does 
business, fund modernization programs needed to prepare for 
future conflicts, reaffirm and strengthen the Nation's 
commitment to care for the All-Volunteer Force, and ensure that 
are our troops and commanders on the front lines have the 
resources and support they need to accomplish their mission.
    My submitted statement includes more details of this 
request, but I want to take this opportunity to address several 
issues that I know have been a subject of debate and concern 
since I announced the outlines of our budget proposal last 
month: First, the serious damage our military will suffer by 
operating under a continuing resolution or receiving a 
significant funding cut during fiscal year 2011; second, the 
recommended termination of the extra engine for the Joint 
Strike Fighter; third, the projected slowing and eventual 
flattening of the growth of the defense budget over the next 5 
years; fourth, the planned future reductions in the size of the 
ground forces; and, fifth, the proposed reform and savings to 
the TRICARE program for working-age retirees.
    I want to start by making it quite clear that the 
Department of Defense will face a crisis if we end up with a 
yearlong continuing resolution or a significant funding cut for 
2011. The President's defense budget request for 2011 was $549 
billion. A full-year continuing resolution would fund the 
Department at about $526 billion, a cut of $23 billion. The 
damage done across the force from such reductions would be 
further magnified as they would come halfway through the fiscal 
year.
    Let me be clear, operating under a yearlong continuing 
resolution or significantly reduced funding, with severe 
shortfalls that entails, would damage procurement and research 
programs, causing delays, rising costs, no new program starts, 
and serious disruptions in the production of some of our most 
high-demand assets, including UAVs [unmanned aerial vehicles]. 
Cuts in maintenance could force parts of our aircraft fleet to 
be grounded and delay needed facilities improvements. Cuts in 
operations would mean fewer flying hours, fewer steaming days, 
and cutbacks in training for home-stationed forces, all of 
which directly impacts readiness.
    Similarly, some of the appropriations proposals under 
debate in Congress contemplate reductions of up to $15 billion 
from the President's original fiscal year 2011 request. I 
recognize that given the current political and fiscal 
environment, it is unlikely that the Defense Department will 
receive the full fiscal year 2011 request.
    Based on a number of factors, including policy changes that 
led to lower personnel costs and reduced activity forced by the 
continuing resolution, I believe the Department can get by with 
a lower number. However, it is my judgment that the Department 
of Defense needs an appropriation of at least $540 billion for 
fiscal year 2011 for the U.S. military to properly carry out 
its mission, maintain readiness and prepare for the future.
    At this point I would like to address the ongoing debate 
over the JSF [Joint Strike Fighter] extra engine. As most of 
you know, the President and I, and the previous President and 
his Secretary of Defense, as well as the Department's senior 
military leadership have consistently and firmly expressed our 
opposition to continuing this costly program. We consider it an 
unnecessary and extravagant expense, particularly during a 
period of fiscal contraction. Congress has not spoken with one 
voice on this matter, and the Department has been operating 
this fiscal year under ambiguous guidance at best.
    Under those circumstances, I decided to continue funding 
the JSF extra engine effort on a month-to-month basis. I did 
this not because we had to, but because we chose to give 
Congress the opportunity to resolve this matter as a part of 
its ongoing debate on the budget. However, this also means the 
American taxpayers are spending $28 million a month for an 
excess and unjustified program that is slated for termination.
    The President, the military services and I continue to 
oppose this extra engine, and when the current CR expires, I 
will look at all available legal options to close down this 
program. It would be a waste of nearly $3 billion in a time of 
economic distress, and the money is needed for higher-priority 
defense efforts.
    Which brings me to this proposed $78 billion reduction in 
the defense budget top line over the next 5 years. To begin 
with, this so-called cut is, in fact, to the rate of predicted 
growth. The size of the base defense budget is still projected 
to increase in real inflation-adjusted dollars before 
eventually flattening out over the next 5 years.
    More significantly, as a result of the efficiencies and 
reforms undertaken over the past year, we have protected 
programs that support military people, readiness and 
modernization. These efforts have made it possible for the 
Department to absorb lower projected growth in the defense 
budget without, as Chairman McKeon warned last month, leaving 
our military less capable and less able to fight. In fact, the 
savings identified by the services have allowed our military to 
add some $70 billion toward priority needs and new 
capabilities.
    And of the $78 billion in proposed reductions to the 5-year 
defense budget plan, about $68 billion comes from a combination 
of shedding excess overhead, improving business practices, 
reducing personnel costs, and from changes to economic 
assumptions. So in reality only $10 billion of that 5-year 
total is directly related to military combat capability. Four 
billion of that 10- comes from restructuring the Joint Strike 
Fighter program, a step driven by this program's development 
and testing schedule that would have taken place irrespective 
of the budget top line. And so the rest, about $6 billion out 
of 78-, results from the proposed decrease in the end strength 
of the Army and the Marine Corps starting in fiscal year 2015.
    Just over 4 years ago, one of my first acts as Defense 
Secretary was to increase the permanent end strength of our 
ground forces, the Army by 65,000 for a total of 547,000 and 
the Marine Corps by 27,000 to 202,000. At the time the increase 
was needed to relieve the severe stress on the force from the 
Iraq war as the surge was getting under way. To support the 
later plus-up of troops in Afghanistan, I subsequently 
authorized a temporary further increase in the Army of some 
22,000, an increase always planned to end in fiscal year 2013. 
The objective was to reduce stress on the force, limit and 
eventually end the practice of stop-loss, and to increase troop 
home dwell time.
    As we end the U.S. presence in Iraq this year, according to 
our agreement with the Iraqi Government, the overall deployment 
demands on our force are decreasing significantly. Just 3 years 
ago we had 190,000 troops combined in Iraq and Afghanistan. By 
the end of this calendar year, we expect there to be less than 
100,000 troops deployed in both of the major post-9/11 combat 
theaters, virtually all of those forces in Afghanistan. That is 
why we believe that beginning in fiscal year 2015 the U.S. can, 
with minimal risk, begin reducing Army Active Duty end strength 
by 27,000, and the Marine Corps by somewhere between 15- and 
20,000. These projections assume that the number of troops in 
Afghanistan will be significantly reduced by the end of 2014 in 
accordance with the President's and NATO's [North Atlantic 
Treaty Organization] strategy. If our assumptions prove 
incorrect, or world conditions change for the worse, there is 
plenty of time to adjust the size and schedule of this change.
    It is important to remember that even after the planned 
reductions, the Active Army end strength would continue to be 
larger by nearly 40,000 soldiers than it was when I became 
Defense Secretary 4 years ago. I should also note that these 
reductions are also supported by both the Army and Marine Corps 
leadership.
    Finally, as you know, sharply rising health care costs are 
consuming an ever larger share of this Department's budget, 
growing from $19 billion in 2001 to $52.5 billion in this 
request. Among other reforms, this fiscal year 2012 budget 
includes modest increases to TRICARE enrollment fees, later 
indexed to Medicare premium increases for working-age retirees, 
most of whom are employed while receiving full pensions. All 
six members of the Joint Chiefs of Staff have strongly endorsed 
these and other cost-saving TRICARE reforms in a letter to 
Congress.
    I understand that any change to these kinds of benefits 
prompts vigorous political opposition. But let us be clear, the 
current TRICARE arrangement, one in which fees have not 
increased for 15 years, is simply unsustainable, and, if 
allowed to continue, the Defense Department risks the fate of 
other corporate and government bureaucracies that were 
ultimately crippled by personnel costs, in particular their 
retiree benefit packages.
    All told, the cumulative effect of the Department's savings 
and reforms, combined with a host of new investments, will make 
it possible to protect the military's combat power despite the 
declining rate of growth and eventual flattening of the defense 
budget over the next 5 years.
    As a result of the savings identified and reinvested by the 
services, our military will be able to meet unforeseen 
expenses, refurbish war-worn equipment, buy new ships and 
fighters, begin development of a new long-range bomber, boost 
our cyberwarfare capability, strengthen missile defense, and 
buy more of the most advanced UAVs. But I should note this will 
only be possible if the efficiencies, reforms and savings are 
followed through to completion.
    In closing, I want to address the calls from some quarters 
for deeper cuts in defense spending to address this country's 
fiscal challenges. I would remind them that over the last two 
defense budgets submitted by President Obama, we have curtailed 
or canceled troubled or excess programs that would have cost 
more than $330 billion if seen through to completion. 
Additionally, total defense spending, including war costs, will 
decline further as the U.S. military withdraws from Iraq.
    We still live in a very dangerous and very unstable world. 
Our military must remain strong and agile enough to face a 
diverse range of threats from nonstate actors attempting to 
acquire and use weapons of mass destruction and sophisticated 
missiles to the more traditional threats of other states both 
building up their conventional forces and developing new 
capabilities that target our traditional strengths.
    We shrink from our global security responsibilities at our 
peril. Retrenchment brought about by shortsighted cuts could 
well lead to costlier and more tragic consequences later, 
indeed as they always have in the past. Surely we should learn 
from our national experience since World War I that drastic 
reductions in the size and strength of the U.S. military make 
armed conflict all the more likely, with an unacceptably high 
cost in American blood and treasure.
    Mr. Chairman, I look forward to working through this next 
phase of the President's defense reform effort with you in the 
weeks and months ahead to do what is right for our Armed Forces 
and to do what is right for our country. Thank you.
    The Chairman. Thank you.
    [The prepared statement of Secretary Gates can be found in 
the Appendix on page 65.]
    The Chairman. Mr. Chairman.

STATEMENT OF ADM MICHAEL G. MULLEN, USN, CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    Admiral Mullen. Thank you, Mr. Chairman, Mr. Smith, and 
distinguished members of this committee. I am honored to appear 
before you today to discuss the President's fiscal year 2012 
defense budget. Before I do, however, let me echo Secretary 
Gates' comments about the very real dangers inherent in failing 
to pass this year's budget.
    The fiscal year 2011 continuing resolution, if carried 
forward, would not only reduce our account by $23 billion, it 
would deprive us of the flexibility we need to support our 
troops and their families. The services have already taken 
disruptive and in some cases irreversible steps to live within 
the confines of the CR, steps that ultimately make us less 
effective at what we are supposed to do for the Nation.
    The Navy did not procure, as planned, a second Virginia 
class submarine by the end of last month, nor was it able to 
buy government-furnished equipment for another Arleigh Burke 
class destroyer. The Army and the Marine Corps have curtailed 
or altogether frozen civilian hiring, and all the services are 
now prevented from issuing contracts for new major military 
construction projects.
    Some programs may take years to recover if the CR is 
extended through the end of September. So I urge you to pass 
the fiscal year 2011 defense bill immediately. Even at a 
reduced top line, it will provide us the tools we need to 
accomplish the bulk of the missions we have been assigned.
    Accomplishing those missions into the future demands as 
well support of the President's fiscal year 2012 proposal. As 
the Secretary laid out, this budget, combined with the 
efficiencies effort he led, provides for the well-being of our 
troops and families, fully funds current operations in 
Afghanistan and Iraq, and helps balance global risk through 
streamlined organization, smarter acquisition and prudent 
modernization.
    The Army, for instance, will cancel procurement of a 
surface-to-air missile in the non-line-of-sight launch system, 
but it will continue production of the Joint Light Tactical 
Vehicle and spearhead the development of a whole new family of 
armored vehicles.
    The Navy will give up its Second Fleet headquarters, reduce 
its manpower ashore, and increase its use of multiyear 
procurement for ships and aircraft, allowing it to continue 
development of the next-generation ballistic missile submarine, 
purchase 40 new F-18s, 4 littoral combat ships and another LPD-
17.
    The Marines will cancel the Expeditionary Fighting Vehicle 
[EFV] and, like the Army, reduce their end strength starting in 
2015, but they will reinvest the EFV savings to sustain and 
modernize the Amphibious Assault Vehicle and the Light-Armored 
Vehicle, even as they advance a new concept of operations and 
restore much of their naval expeditionary skills.
    And the Air Force will be able to continue development of 
the next tanker, a new bomber, and modernize its aging fleet of 
F-15 fighters, all the while finding savings of more than $33 
billion through reorganization, consolidation and reduced 
facilities requirements.
    None of this balancing will come on the backs of our 
deployed troops. We are asking for more than $84 billion for 
readiness and training, nearly $5 billion for increased ISR 
[intelligence, surveillance, and reconnaissance] capabilities, 
and more than $10 billion to recapitalize our rotary aircraft 
fleet.
    These funds, plus those we are requesting to help build 
partner capacity in places like Afghanistan, Pakistan, Iraq and 
Yemen, all speak to the emphasis we are placing on giving our 
troops and their partners in the field everything they need to 
do the difficult jobs we have asked of them.
    We must also give them and their families everything they 
need to cope with the stress and strain of 10 years at war. 
That is why I am so pleased with the funds devoted in this 
proposal, almost three-quarters as much as the $200 billion 
budgeted for operations and maintenance, to personnel, housing 
and health care issues.
    As you may know, the Chiefs and I penned a rare 24-star 
letter to the Senate Armed Services Committee this week 
expressing our unqualified support for the military health care 
program changes included in this budget. We have sought equity 
across all health care programs, with beneficiaries and health 
care delivery providers having the same benefits as equivalent 
payment systems regardless of where they live or work. That, in 
turn, led us to propose increases in TRICARE enrollment fees 
for working-age retirees. These increases are modest and 
manageable and leave fees well below inflation-adjusted out-of-
pocket costs set in 1995 when the current fees were 
established. We sincerely hope you will see fit to pass them.
    Please know that we will continue to invest wisely in 
critical care areas to include research; diagnosis and 
treatment of mental health issues and traumatic brain injury; 
enhanced access to health services and new battlefield 
technologies. We understand that changes to health care 
benefits cause concern among the people we serve and the 
communities from which we receive care, but we also understand 
and hold sacred our obligation to care completely for those who 
have borne the brunt of these wars, as well as those for whom 
the war never ends.
    I am convinced that we haven't even begun to understand the 
toll in dollars and in dreams that war extracts from people. As 
the grandsons and granddaughters of the World War II vets still 
struggle to comprehend the full scope of the horror those men 
yet conceal, so, too, will our grandchildren have to come to 
grips with the wounds unseen and the grief unspoken unless, of 
course, we get it right.
    And I believe the investments we are making in wounded care 
and family readiness will pay off in that regard, but it will 
take time and patience and money, three things we seem so 
rarely to possess in this town.
    That brings me back to this particular budget request. With 
limited resources and two wars in progress, we should be 
prudent in defining our priorities, in slaking our thirst for 
more and better systems, and in controlling costs.
    We should also be clear about what the joint force can and 
cannot do, just as we should be clear about what we expect from 
our interagency and our international partners. Our global 
commitments have not shrunk. If anything, they have grown, and 
the world is a lot less predictable now than we could have ever 
imagined. You need look no further than Tahrir Square to see 
the truth in that.
    Foolhardy would it be for us to make hasty judgments about 
the benefits, tangible and intangible, that are about to be 
derived from forging strong military relationships overseas, 
such as the one we enjoy with Egypt. Changes to those 
relationships in either aid or assistance ought to be 
considered only with an abundance of caution and a thorough 
appreciation for the long view, rather than in the flush of 
public passion and the urgency to save a buck. The $1.3 billion 
we provide the Egyptian military each year has helped them 
become the capable, professional force they are, and, in that 
regard, has been of incalculable value.
    Of equal or greater value is increased appropriations for 
the State Department and our request in this budget for 
something called the Global Security Contingency Fund, a 3-year 
pooled fund between the Pentagon and State that will be used to 
build partner capacity, prevent conflicts and prepare for 
emerging threats. The request is modest, an initial $50 million 
appropriation, along with a request for authority to reprogram 
an additional $450 million if needed. But what it will buy us 
is an agile and cost-effective way to better respond to 
unforeseen needs and take advantage of emerging opportunities 
for partners to secure their own territories and regions.
    We must get more efficient, yes, but we also must get more 
pragmatic about the world we live in. We can no longer afford 
bloated programs or unnecessary organizations without 
sacrificing fighting power. And we can no longer afford to put 
off investments in future capabilities or relationships that 
preserve that power across the spectrum of conflicts.
    I have long said we must not be exempt in the Defense 
Department from belt tightening, but in truth there is little 
discretionary about the security we provide our fellow 
citizens. Cuts can reasonably only go so far without hollowing 
the force. In my view, then, this proposed budget builds on the 
balance we started to achieve last year and represents the best 
of both fiscal responsibility and sound national security.
    Now, I don't know what sorts of questions Representative 
Giffords would ask me if she were sitting here today, but I do 
know she wouldn't let me leave until I lauded the incredible 
effort of our troops overseas as they finish one war in Iraq 
and begin to turn corners in Afghanistan. I know you share my 
pride in them and their families, and I know you will keep them 
foremost in mind as you consider the elements of this proposal.
    I thank you for your continued support of our men and women 
in uniform and their families, and I look forward to your 
questions.
    The Chairman. Thank you very much.
    [The prepared statement of Admiral Mullen can be found in 
the Appendix on page 75.]
    The Chairman. Mr. Secretary, Mr. Chairman, as I stated 
earlier, I think everyone on this committee strongly supports 
your request for an appropriation bill that will take care of 
the work that should have been done last year, but if it had 
been done last year by Congress and the administration, we 
wouldn't even be having this argument, this fight, the thing 
that we are trying to resolve right now on the floor.
    So I am hopeful that we can wrap this up just as quickly as 
possible, and I know that all of the defense industry, all of 
the men and women who wear the uniform, and all of your 
colleagues in the Department are strongly behind that, as are 
all of the members on the committee. So I hope we can get that 
done quickly.
    The $78 billion that--you know, that we are talking about 
as a cut, I understand that it is not a cut as we would propose 
something being cut this year from last year's budget. But last 
year, when we were holding these hearings, and you projected 
out the budget for the 5 years, the $78 billion was included in 
it.
    Now, I commend you for what you have asked the services to 
do to find efficiencies and save that $100 billion that they 
will be able to mostly reinvest into more important items going 
forward. And I guess we will continue to talk about the 
outgoing years in outgoing years, but we all understand we are 
in a tough financial situation in the country, and I think we 
all need to work together to make sure that whatever reductions 
in future spending, we all work together to make sure that it 
doesn't cut into our men and women serving in harm's way and 
their families.
    One of the concerns I have had, as we have gone through the 
QDR [Quadrennial Defense Review] and hearings last year and 
this year, it seems to me that the budgets are not driven by so 
much defense needs--or procurement and the things that we are 
talking about spending aren't driven by threat needs, they are 
driven more by budgetary concerns. And as I indicated in my 
opening statement, reductions to the Army and the Marine Corps 
end strength, I can remember when you came, Mr. Secretary, and 
how hard it was to increase the size of the force. And I 
understand that even with these reductions, there still will be 
a larger force than when you became Secretary 4 years ago. But 
as I look around the world and see what is happening, the 
recent events in Egypt, Yemen, Asia and other threats around 
the world, I have great concern about cutting the end strength.
    And so my question is revolving around that. Is a reduction 
in end strength conditions-based? If so, what metrics will the 
Department use to reevaluate this decision going forward? At 
what point will we decide and what measurement will we use to 
decide if this is the correct number to decrease our strength, 
and when will that decision be made?
    What was the 2016 end strength presumed by the QDR and 
during development of the National Military Strategy? And, 
finally, how will this reduction in end strength affect the 
objective of 1-to-3 dwell time for the Active Force?
    Secretary Gates. Let me start and then ask the chairman to 
add in.
    First of all, I would say that it is conditions-based. And 
as I said in my opening statement, if our assumptions about, 
for example, the drawdown in Iraq prove incorrect, then I think 
we will be in a position to change this decision and add to end 
strength further, well before 2015, or at least find other ways 
to deal with the dollar so that there isn't a reduction in end 
strength.
    I would say the key metric is, and the most predictable 
variable is, in fact, the drawdown in Afghanistan. A big 
assumption in this is that we have a very much smaller presence 
in Afghanistan at the end of 2014 than we do now, and I think 
you will know as early as the end of 2012, beginning of 2013 
whether that is going to happen, which allows plenty of time to 
alter these decisions.
    The good thing about this approach is that because you 
don't start to cut anything until 2015, you don't have to go 
out and recruit anybody; all you have to do is find other 
sources of the money. And, you know, what was described to me a 
long time ago about the outyears, the outyears are where 
everybody's dreams come true.
    And so just as an example, when I took this job, the 
forecast, the projected budget for fiscal year 2012 in the 2007 
Bush budget was $519 billion. Our submission is for 553-. So 
these things do change over time, and there is a lot of 
flexibility.
    But I will say this about the Marine Corps. The Marine 
Corps actually came forward with their proposal, and it was 
really unrelated to the budget. Both the previous Commandant 
and the current Commandant believe that when the Marines are 
out of Afghanistan, that the Marine Corps is both too large and 
too heavy to fulfill its traditional missions going forward. 
And so they were talking about reductions in Marine Corps end 
strength a year or two ago, and so that--they tie that very 
much to their mission. And, as I say, we can revisit the 
Army's--you can revisit the Army's end strength depending on 
the conditions in 2013 or 2014.
    Admiral Mullen. Mr. Chairman, all of us in the leadership, 
in leadership positions in the military believe that we live in 
a time of what we call persistent conflicts. It is very 
difficult to know, obviously, what is going to happen in 2015, 
2016 timeframe. But to your point and to the Secretary's 
answer, I think this really is conditions-based per se.
    And in addition to the metric of certainly Afghanistan and 
Iraq, and, you know, we will be in a position there in 2015, 
2016, where our force is substantially reduced, and to include 
in that the 25,000 marines or so who are there now. I would 
just echo what the Secretary said with Jim Conway, who was the 
previous Commandant; Jim Amos, the current Commandant. They had 
been planning to get smaller and lighter. They are too heavy. 
They are the Nation's second land force, which is not what they 
want to be, and they have got to get back to some degree as we 
move ahead to their roots, which is lighter and smaller.
    With respect to the Army in particular, we have looked out 
through the QDR at how many brigades would we have out there. 
And the answer is, we are not sure. We planned around 6 to 10 
or some number like that. We don't know where to look prudently 
at the future as actually the Army has become much more 
expeditionary. And that is where we are headed, and I am very 
comfortable with that.
    Each of the service chiefs--all of us, but each of the 
service chiefs, depending on which service you are talking 
about, some 60 to 70 percent--when you add civilians, direct 
support contractors, 60 to 70 percent of our budget goes to 
people.
    And so and as the Secretary said in his statement, you 
know, we are on a way, on our way of becoming almost 
immobilized by just what it costs in terms of our people. The 
health care piece is just--it is not an insignificant part of 
it, but it is an example. So we have tried to achieve balance.
    Probably the metric I would use is the one you suggested, 
which is dwell time. We are now in this budget, as we look out 
a few years, we will get to about in the 2015 timeframe where 
we are, 1 and 2. I think the Commandant would sit here and say 
that is probably about where he wants to be in terms of 
rotating his force. I think the Chief of the Army would say 1 
and 3. And obviously that will then depend on what the 
obligations will be.
    But you can see now, in various examples, where we have our 
troops home a lot longer than we used to, starting to be 
significantly longer than they were deployed. We are just in 
the beginning of that. We have got to get out to 1 to 2 and 
then in the case look at really decisions around getting to 1 
to 3 with respect to the Army.
    So I am comfortable that we have time, we can look at it. 
And certainly the service chiefs would come in and change their 
recommendation, if you will, based on what I know about them, 
if the conditions warranted it.
    The Chairman. Thank you very much.
    Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman. Actually, I have two 
sets of questions.
    Congresswoman Giffords' staff has submitted to me some 
questions that she has, and I thank both of you for your kind 
words on her behalf. And they focus on Department of Defense 
energy issues, something that Congresswoman Giffords has worked 
a great deal on, and basically using efficiencies and 
alternative to deal with our energy needs and reduce our energy 
consumption.
    She had introduced a bill, the Department of Defense Energy 
Security Act, in 2010. Many of those provisions were contained 
in our fiscal year 2011 NDAA [National Defense Authorization 
Act], and I wanted to follow up on that. And then specifically 
there is a program that the Marine Corps is using at a forward-
operating base in Afghanistan to use solar as a way to reduce 
their fuel consumption.
    And I think the biggest point here to make is this isn't 
just about saving money or dealing with the energy challenges, 
this also does save lives. And the specific example there is 
that because they used solar, they were able to significantly 
reduce their fuel consumption, as I understand it, from like 20 
gallons a day down to 2.5. And that reduction means that fewer 
convoys have to come and go and bring fuel in, which means that 
fewer people are exposed to the IED [improvised explosive 
device] threat. So there are very specific implications of this 
policy.
    And going forward, I want to know, first of all, how the 
Department of Defense is doing implementing these programs, 
finding efficiencies, reducing our energy consumption through 
the use of efficiencies and alternatives; and then, second of 
all, what more we in Congress legislatively need to do or can 
do to help you.
    And if you could on those two questions, I would like to 
hear some brief comments from you, but submit the answers for 
the record to both Congresswoman Giffords' office and to mine. 
But if you could take a stab at that now, that would be great.
    Admiral Mullen. I think that the example that you actually 
give of the Marines in Afghanistan is a terrific example, and 
it does exactly what you just described. And, actually, Marines 
in Anbar Province several years ago started that, looking at 
the length of their convoys, the number of people that were 
actually put in harm's way because of the logistics and 
transportation requirements. That has kicked in over to the 
Army and actually across all the services.
    So I think the efforts with respect to improving and 
reducing energy dependency are significant. The Secretary stood 
up a very, very strong office to oversee this to both integrate 
the efforts, the investments are there. The Air Force has, from 
my perspective, led the way with respect to synthetic fuel, use 
of synthetic fuels in aircraft. The Navy has picked up on that. 
So there is a significant effort across the board.
    There are green investments taking place in the Marine 
Corps out in Twentynine Palms, for instance, just straight, 
solar energy. The reductions that that base commander is seeing 
are significant as well. That is also starting to be put in 
place in other bases around the country.
    So we are sharing the ideas. We know that we have got to 
reduce our dependence significantly, and the leaders are 
focused on that. We have seen some of the results, but we have 
expectations they will be significantly greater in the future.
    Mr. Smith. I think--Mr. Secretary, go ahead.
    Secretary Gates. I was just going to make two quick 
comments. First I think credit needs to be given particularly 
to the Secretary of the Navy, Ray Mabus, because I think the 
Navy has a really aggressive program in terms of reducing 
energy use.
    Second, I would just note that I read just a few days ago 
that the C-17 was just certified for use of synthetic fuels.
    Mr. Smith. And that is why--just two points in closing on 
this issue before asking another question--is, number one, how 
much difference this can make. I think there is generally in 
the energy field I feel like, well, yes, they are talking about 
this and that and the other thing, but when is it ever going to 
happen? It is happening. And I think the military is out front. 
Every base that I visit, and there are many, they always talk 
about how they are doing this, that, or the other thing on 
energy, and how much they have reduced their energy 
consumption, and how much more efficient it is.
    And then I think the challenge really is to get it to 
scale. As all these experiments are happening, sort of quickly 
find out, okay, here are the three things that just work the 
best. Let us get them servicewide and get them implemented. So 
I think you are making enormous progress then.
    And we thank you, and like I said, if you could submit a 
more detailed answer to Congresswoman Giffords' office and 
mine, that would be great. I would appreciate it.
    Just two quick areas I want to ask about. One, as I 
mentioned in my opening remarks, you know, development 
assistance is becoming a greater part of our national security. 
Stability is the goal here. You know, our enemies now prey on 
ungoverned or ungovernable spaces. They find openings, places. 
It has certainly happened in Afghanistan. It is happening in 
Pakistan, Somalia and Yemen to some extent.
    So figuring out how to do stability is going to be 
critical. And I know of necessity the Department of Defense has 
taken on a lot of responsibility in this area through CERP 
[Commander's Emergency Response Program] funds, through 1206, 
1208. And part of the problem there is these are 
responsibilities better done by, in some cases, the State 
Department or Department of Agriculture or other areas that 
know more about those.
    But you guys have the money, and you have got--you know, 
you were the forward-leading folks. You are out there in the 
field having to figure this out. And, you know, frankly, there 
was not sufficient support elsewhere, so you had to do it.
    The question is how do we begin to transition that 
responsibility, because it is not a core responsibility of the 
military in many instances. It is a core responsibility of 
folks in other agencies. But how do you make that work? How do 
we make sure those other agencies have the support they need? 
How do we transfer the funds? How do you envision that playing 
out?
    Secretary Gates. Well, we have been advocating for much 
greater civilian involvement in these kinds of activities, not 
only in Iraq and Afghanistan, but in global stability 
operations, at least since I gave the Landon Lecture at Kansas 
State in 2007.
    The biggest part of the problem, quite frankly, is 
jurisdictions here on the Hill, and it is the difficulty the 
State Department has in getting their appropriations and 
getting the money they need to do their job.
    If you took every Foreign Service officer in the State 
Department, you would not have a large enough number to crew a 
single aircraft carrier. So finding the resources for the State 
Department--because many of these areas, what we have done is 
worked with you, and you have been very helpful to us in 
developing some work-arounds.
    So on 1206, for example, we have dual-key arrangements. We 
basically leave the initiative up to the State Department in 
terms of what we should do on some of those, and then we fund 
it, and we partner with them. By rights that money should 
probably be in the State Department to start with.
    And so, I think this is an area where legislation, but 
especially appropriations, are really important, because these 
stability operations--and there is a military component to it 
because it is developing partner security capability so that 
they can take care of the security in their own countries so we 
don't have to send American troops to do it.
    And you can just tell from the costs in Iraq and 
Afghanistan the differential in cost between our training 
somebody else to do it and the State Department then providing 
the civilian support in terms of governance and various other 
kinds of assistance compared with having to use U.S. troops. So 
it is a challenge.
    I think we have developed, over the last several years, 
very close working relationships between State and Defense in 
these work-arounds and in these jerry-rigged operations. But a 
long-term solution is the kind of global fund that Admiral 
Mullen was talking about and so on.
    Mr. Smith. Thank you, and you are absolutely right. I mean, 
security has to be a key component of any sort of development 
going forward. You don't have security, you can't do that. And 
I think, you know, the Philippines is an excellent example of 
where a very small number of our forces trained the local 
security forces. And, you know, you don't hear much about what 
is going on in the Philippines, and that is a good thing, and 
then you look at Iraq and Afghanistan, and you can see the 
alternative is just so much more costly, it is beyond 
imagination.
    Just one final comment. When we are trying to figure out 
going forward dealing with the difficult budget environment 
that we have and trying to anticipate threats, you know, trying 
to make sure that we are ready for whatever comes next, I just 
want to make sure that people are aware of the fact that you 
cannot be ready for everything. You know, from my earliest days 
on this committee, one of the things that struck me was every 
day we would come and talk about some threat, and then we would 
talk about how we are not doing enough to be ready for it, and 
I get that.
    But if you were to look out at the world and imagine every 
possible threat and say the job of this committee, or your job, 
is to make sure that we spend enough money to be ready for any 
and all contingencies, the defense budget--well, it might not 
be infinite, but it would be darn close. So we have to 
prioritize those threats going forward with the budget, and we 
can't walk too far down the road that if we can imagine a 
threat, we have to spend whatever we possibly can to make sure 
that we are protected against it, because that sinks us in a 
different way.
    We really have to prioritize. And towards that end I think 
that the key going forward to get the right budget is to really 
look at the requirements. I mean, it starts with the QDR. Once 
we decide that there is a requirement, we then have to fund it. 
If we don't fund it, we are not giving our troops the support 
that they need to do the job that we, by definition, have asked 
them to do.
    But I would like to think that we can also go back to the 
start of that process, not just the end, not just the end, and 
say, gosh, we have to fund this; but go back to the start and 
say, well, is that really a requirement, or is that something 
we developed 10 or 15 years ago that is no longer appropriate? 
So getting there I think we need to move in that direction.
    Secretary Gates. Let me make just two quick comments about 
that. First of all, if you look back to every time we have 
engaged in a military operation since the Vietnam war, we have 
a perfect record. Six months to a year before we engaged in 
that operation, nobody had any idea we were going to do it.
    And so the mantra for the Department that I have tried to 
inculcate is in the current budget environment, we have to be 
exceptionally careful about buying niche capabilities, very 
expensive weapons systems that have application in only one 
scenario. There may be some of those that we need, but we need 
to be extremely judicious about those investments.
    But our overall approach ought to be the broadest--the most 
flexible range of capabilities to cover the broadest range of 
conflict so that, you know, a C-17 is going to be applicable 
whether we are dealing with a near peer or whether we are 
taking aid into Pakistan. So, having capabilities that can form 
many missions is where we need to focus most of our procurement 
dollars for the very reason you cited.
    Admiral Mullen. Sir, can I just make one comment? I think 
one of the ways you do protect against the unknowns is to make 
sure that your S&T [science and technology] and what I would 
call pure R&D [research and development] budgets are both 
comprehensive and broad and not--and sometimes those become 
very easy targets. You need the innovation, you need the kind 
of investment for the capabilities of the future that really 
starts there, and the Secretary has led this.
    There has been a, you know, very focused effort to make 
sure that is sustained. And in the totality of the budget, it 
is not a huge amount of money, but its long-term leverage is 
just, you know, almost off the charts.
    Mr. Smith. Thank you, Mr. Chairman. Thanks to both 
witnesses. You are doing an outstanding job for our country. We 
appreciate it.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. Thank you.
    Mr. Secretary, I want to put my comments in context. To the 
best of my knowledge, the only interest in the engine for the 
F-35 in the district I have the honor to represent is an 
interest in the 135. As far as I know there is no interest in 
the 136.
    The Weapon Systems Acquisition Reform Act of 2009 requires 
that you ensure that the acquisition strategy for each major 
defense acquisition program includes measures to ensure 
competition or the option of competition at both the prime 
contract level and the subcontract level of such program 
throughout the life cycle of such program as a means to improve 
contractor performance.
    The current F-35 acquisition strategy states, and I quote, 
``To preclude excessive reliance on a single engine supplier, 
an alternative engine program was established,'' unquote. The 
F-35 could represent up to 95 percent of the entire U.S. 
fighter fleet in the future. Use of a single engine could 
result in grounding of essentially all of the fighters in all 
of the services.
    The 2010 Hadley-Perry Quadrennial Defense Review Panel 
endorsed dual-procurement competition, and I quote, ``as the 
only way to control program costs.''
    The senior Pentagon procurement official cited competition 
as the cornerstone of defense acquisition. The Pentagon's last 
update of the F-35 alternative engine business case indicated 
the competitive engine is at the break-even point in net 
present value. After having opposed dual-source procurement for 
the littoral combat ship [LCS] as not being, quote, ``real 
competition,'' unquote, the Pentagon signed a dual-source 
procurement contract at the end of last year with the two 
bidders for the LCS.
    Sir, for the past 2 days, two papers have been circulated 
to Congress here, one of them on Monday, one of them on 
Tuesday. They are unsigned and undated. It simply says, 
``Prepared by the Department of Defense.'' The Office of the 
Secretary of Defense for Legislative Affairs has refused to 
respond over the past 3 days to why these papers are not dated 
or why they were not provided to the Armed Services Committee.
    Sir, when I was a little boy, my mother impressed on me 
that an intent to deceive was the same thing as a lie. In each 
of these papers, there is a statement, the F-136 alternate 
engine is currently 3 to 4 years behind in development compared 
to the current engine program, and yesterday's paper said, and 
the F-136 engine is already 3 to 4 years behind in its 
development phase.
    Sir, the second engine, as you know, was started 4 years 
after the first engine. As you know, the first engine is now 
about 24 months behind in its development. I understand that 
the second engine is just 2 to 3 months behind in its 
development cycle. So in reality, had they both been started at 
the same time, the second engine would now be well ahead of the 
first engine.
    Sir, are you comfortable that these two missiles that have 
gone through Congress for the last couple of days do not 
constitute a violation of the statute that prohibits the 
Pentagon from lobbying Congress?
    Secretary Gates. I am not in the slightest aware of either 
one of those documents. The only document that I am aware of is 
a letter that I sent to Representative Rooney, I think, 
yesterday or the day before, and I can assure you it was both 
signed and dated.
    I will just tell you--well, that was your question.
    Mr. Bartlett. Sir, these two papers are circulated. I will 
have them bring copies down to you. They are unsigned and 
undated, and the Office of the Secretary of Defense for 
Legislative Affairs refused to respond over the last 3 days as 
to why these papers are not signed or why they were not 
provided. They were provided to everybody else in the Congress 
except the Armed Services Committee is my understanding.
    Are you comfortable, sir, that this does not constitute a 
violation of the statute that says that the Pentagon cannot 
lobby Congress?
    Secretary Gates. Let me see the papers and find out the 
background before I make a judgment on them.
    The Chairman. Thank you. After you have a chance to peruse 
those, if you would please respond to the gentleman in writing, 
we would appreciate that.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Gentlemen, welcome, and thank you for your service.
    Let me add my concern to the issue of the reductions in end 
strength for both the Army and the Marines, given some of the 
challenges that we know we are going to have in the next few 
years in the Horn of Africa and other areas. So I do hope we 
are careful with those reductions, because in the final 
analysis, the ones that pay the price are the service men and 
women and their families. And most recently we have learned 
over the last 8 years in activating and using the Reserve 
forces, a lot of unintended negative consequences impacted 
those families. So I also want to urge caution there.
    The other concern that I have is yesterday it became a 
national story about a lawsuit filed by former veteran women 
that are alleging what I think is a hostile work environment, 
and sexual harassment and other things. I know you are probably 
not in a position to comment on that, Mr. Secretary, but I 
would like to work with your office to better understand 
exactly the circumstances that led to this lawsuit.
    Secretary Gates. If I may, let me just say--and obviously 
what I can say is limited by the fact of the lawsuit, but let 
me just say a couple of things, because this is a matter of 
grave concern, I suspect, to everybody in the room.
    First of all, I have zero tolerance for sexual assault. And 
I worked with Chairman Mullen and the Joint Chiefs and the 
service secretaries to see if we are doing all we can to 
prevent and respond to sexual assaults. I have had multiple 
meetings with the senior leadership of the Department on this 
issue over the past 4 years.
    I have established four critical areas of departmental 
focus: reducing stigma associated with reporting, ensuring 
sufficient commander training, ensuring investigator training 
and resources, and ensuring trial counsel training and 
resourcing.
    We have hired dozen more investigators, field instructors, 
prosecutors and lab examiners. We have spent close to $2 
million over the last 2 years to train our prosecutors so that 
they are better able to be successful. We have expanded the 
Sexual Assault Response Coordinator and Victim Advocates 
tenfold from 300 to 3,000, and we now have those advocates at 
every base and installation in the world, including in Iraq and 
Afghanistan. The court martial percentages have increased from 
30 percent to 52 percent.
    So we are making headway. The fact is we aren't where we 
should be. It is a matter of grave concern, and we will keep 
working at it.
    Mr. Reyes. Yes.
    Admiral Mullen. Sir, I would certainly more than just echo 
what the Secretary said in terms of zero tolerance. This has 
been an issue actually over the course of the last 6 or 7 
years. It has been an issue of great focus. And it is 
unacceptable that we haven't gotten where we need to be on 
this.
    We know this is an extraordinarily difficult issue, and I 
know, both as a former service chief as well as knowing the 
current service chief, it is an area of focus. It wasn't that 
long ago it was a significant area both in the combat zone in 
Iraq. There still is enough anecdotal information coming out of 
both Iraq and particularly in Afghanistan to certainly be of 
concern.
    What the Secretary said in terms of the investments in 
terms of improvements in education, focus on leadership is 
exactly right, but we also have, I think--we still have 
significant work to do, and the leadership is focused on that.
    Mr. Reyes. Thank you.
    Let me just mention quickly two other things. First of all, 
I represent Fort Bliss, who in the area of green energy is 
hoping to be off the grid by the 2015-2016 timeframe. That is a 
huge compliment to the work that you are both supporting in 
terms of alternative energy.
    And then the last thing is I would urge you, Mr. Secretary, 
to work closely with the Secretary of Veterans Affairs to find 
a way to computerize as service men and women come out of 
Active Duty into the Veterans Administration jurisdiction, that 
there be a way of doing a better job through automation.
    Thank you very much. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Mr. Secretary, I thought that the sentence you added 
towards the close of your statement, that retrenchment brought 
about by short-sighted cuts could well lead to costlier, more 
tragic consequences later, indeed as they always have in the 
past, is a very powerful statement to me. I think it is a 
warning to all of us somewhat related to the conversation you 
were having with Mr. Smith about 6 months out, we never know 
what we are about to get into. And I guess it is that feeling 
that really you express better than I could that leads me to be 
concerned about not just end strength, but force structure in 
the future.
    I notice that the independent panel of the QDR, chaired by 
Steve Hadley and former Secretary Perry, with all these people 
you know well on it, expressed their concern about a growing 
gap between our interests and our military capability to 
protect those interests in a complex, challenging security 
environment. That is along the very same lines you were talking 
about with our diverse, complicated, difficult threats. And 
their conclusion was that they believe the current size and 
current end strengths of the Army and Marine Corps should be 
retained.
    And I heard what both of you said, that this is conditions-
based, and we will see how it goes, and we can change our mind, 
but I am under the impression that the end strength and force 
structure is not something that you can just flip a switch and 
say on/off, that it is the kind of thing that you have got to 
plan ahead for, both in budgets and equipment, in the personnel 
pipeline for training. It is something that has to be planned 
for.
    And so I guess I would appreciate a little more--especially 
since this is, as you say, your last appearance before us--a 
little more of your thoughts about not just end strength, but 
the force structure moving ahead with the kinds of threats that 
at least we understand are on the horizon, failed states, 
trouble in the Middle East, the kinds of stability operations 
that you all were talking about from a financial standpoint. 
But all of that is very manpower-intensive. And so I would 
appreciate your thoughts about how we on this committee can 
best prepare us to deal with those kinds of challenges ahead, 
even if we don't know exactly what they are.
    Secretary Gates. Well, first of all, as I look ahead, I 
think, as I say, and as both the chairman and I have said, the 
end strength that I approved in 2007 for both services will 
remain in place at least until 2015, and those plans could be 
altered depending on circumstances.
    As I look around the world--and we were talking about 
stability operations--one of the areas where we have had a 
significant expansion of capabilities over the last few years 
has been in our Special Operations Forces. And they often play 
the training role that Mr. Smith was talking about in these 
stability operations. And one of the big moves we have made 
that has not been noticed very much is that this increase in 
soft capabilities over the last 2 or 3 years has been moved out 
of the supplementals and into the base budget so that those 
soft capabilities that we will use in a lot of these unstable 
conditions that we look around the world and see will be 
sustained even once we stop getting overseas contingency 
appropriations and so on.
    I will tell you the areas of force structure that worry me 
a lot, and they are areas that this committee in the years to 
come is going to have to address. For example, the number of 
our surface ships, the number--a number of the Navy ships that 
were built during the Reagan years will basically reach the end 
of their planned life in the 2020s. And where the money comes 
from to replace those surface ships or to get to 313, which is 
the Navy's goal from the 287 we have now, I think is going to 
be a challenge. And especially if you put it alongside for the 
Navy acquiring a new ballistic missile submarine for the Air 
Force, is the Air Force, in fact, in 2020 or 2025 going to be 
able to afford a new tanker, an F-35, and a new penetrating 
bomber?
    So there are some tough choices in terms of big 
capabilities that are coming down the road. They are not facing 
us right now, and what we have been able to do is to give 
future Congresses and future Presidents choices because we are 
making investments in things like the SSBN-X [next-generation 
ballistic missile submarine], like the new bomber and so on. 
But down the road when procurement starts, there are going to 
be some very tough decisions that are going to have to be made.
    The Chairman. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you, Admiral and Secretary, for being before us 
again today.
    And, Secretary Gates, I just would like to thank you for 
your service because you, obviously serving under two 
Presidents just have been really wonderful to work with. And I 
think so many of us here who have been on this committee for a 
long time really appreciate your candor and your desire to work 
with us to make things better at the Pentagon. So thank you for 
that.
    You know, we find ourselves in two wars, and it has been, I 
don't know--I am losing track--maybe about 8 years. And when 
you are in a time of war, there is always the, you know, fog of 
war, and you want to fund, you want to make sure you win, you 
want to make sure your soldiers and airmen and seamen and 
marines and Coast Guard and all are taken care of and have what 
they need when they are on the front lines. So I think what we 
have seen is really an increase in monies, at least over the 14 
years, now 15 years, that I have been on this committee.
    But, you know, just in January, the Department of Defense 
came out with the report stating that in the past 3 years, the 
Pentagon had awarded $285 billion to companies that were 
defrauding the Pentagon; $285 billion in 3 years. And I know 
when I looked through your budgets, and I have talked to you, 
and we have worked through that you are taking extensive 
initiatives to bring efficiency and savings to the Department. 
And I know we set up the task force with Mr. Andrews on this 
committee to do acquisition in a different manner, and we 
believe that we will find some of this fraud, and we will 
contract in a different way, and we will begin to see some 
savings from that.
    But when something like $285 billion over 3 years occurs, 
it really is working against all the hard work that you and 
others and some in this Congress have done in terms of getting 
rid of the waste in the Department. And what really concerns me 
is that Senator Sanders requested that investigation. If he had 
not, we would have never seen that $285 billion report.
    So my question is, what is in place for the Department of 
Defense to catch those types of things? Were they not in place? 
Do we have new guidelines now that we have seen that that came 
forward? And what can you do, and what can we do together, to 
ensure that these types of companies never get a contract again 
from the Federal Government?
    Secretary Gates. Well, I am not familiar with the study 
that you cite, but I will tell you that there have been a 
number of changes made over the last year or so in terms of our 
approach to acquisition, beginning with the legislation that 
the Congress passed on acquisition reform. The one exception 
that I have made to the freeze on civilian hiring for the next 
5 years in the Department is, in fact, in the acquisition area 
and in hiring professional--building up our own professional 
cadre of acquisition experts. Part of the reason for that is we 
have had too many instances where we have contractors letting 
contracts to contractors instead of people who have the 
interests of the Department of Defense and the U.S. taxpayer at 
heart. So professionalizing our acquisition workforce is a very 
high priority.
    We have really changed a lot in the last year or so in 
terms of our procedures and our processes, first of all, just 
in negotiating smarter contracts, and we have seen some real 
benefits from that. And the example was used in another context 
of the littoral combat ship. Being able to get these two into a 
real competition got the price down far enough that we were 
actually able to buy more ships because of that.
    So I think we have a lot of efforts underway. We have 
thousands of auditors. We have about 10,000 lawyers. And so the 
key is, I think, having the acquisition professionals who can 
discern these bad behaviors and, first of all, prevent them 
from happening in the first place, but then be quicker and more 
effective in catching them.
    Ms. Sanchez. Thank you. My time is over. We will make sure 
we get that Department of Defense report to you so you can take 
a look at that. And I have some other questions, but I will 
submit them for the record because of the time. Thank you, Mr. 
Secretary.
    The Chairman. Thank you.
    Mr. Akin.
    Mr. Akin. Thank you.
    Mr. Secretary, I want to start by saying I really respect 
your decisiveness. Nobody could say that you are afraid to wade 
in and make the tough decisions, and certainly we need that 
kind of leadership.
    I don't always appreciate the communication strategy of 
letting us know. You say that sometimes you don't know for 6 
months before whether you are going to be into a conflict. 
Sometimes we don't know whether a program is going or not, and 
it is a matter of about a day or so that we find out. So 
sometimes on this committee, it would be helpful if you worked 
on the communications and give some of us a heads-up as to what 
you are thinking and where we are going because we are trying 
to play as a team with you.
    Particularly in that regard, I have shifted over, I am now 
on the Budget Committee and trying to help people to understand 
the difference in growth of entitlements and what has happened 
to the defense budget as a percent of GDP [gross domestic 
product]. As you know, the defense budget has gone very much 
down since 1965, and the entitlements are, whatever it is, 6- 
or 700 percent increase. But we need to make the case to make 
sure that you are not so pinched on money that you can't get 
the job done.
    So I hope that you look at us as partners and helpers. If 
you are going to all of a sudden, for instance, going to whack 
the Expeditionary Fighting Vehicle [EFV], which happens to be 
in our committee, it would be helpful to have some idea that 
you are thinking about that as we move from full speed ahead to 
all stop. You know, it is a little helpful to have a heads-up 
on it.
    I was interested to hear you reflect on where you were 
concerned about where we are overall. I also am concerned about 
the number of ships. I had a chance to spend 3 hours in one of 
those situation rooms that was designed to give us a picture 
from ``Hail Britannia, Ruler of the Seas,'' and all through our 
history. And one of the big lessons from that was you fight the 
war with the ships that you have, or at least the ones you have 
on the waves. You can't design a new ship and build it because 
the war will be over by the time you get there.
    My concern was we were talking about a 313-ship Navy. We 
are down to 287, and as you pointed out, when you put the 
ballistic missile submarine or something in there, boy, that 
budget just blows up. So I certainly hope we can work on 
whatever we can do to try to continue on the building.
    The other thing, the Expeditionary Fighting Vehicle, I 
don't really give a rip what particular platforms we have, but 
it seems to be nonnegotiable that marines have to get from the 
ocean to the land, and they have to get there quick enough, and 
not seasick enough, and not full of diesel fumes enough that 
they can actually fight when they get to shore. And I am not 
convinced that we have an adequate strategy without having that 
vehicle or something to fill that gap. So it is something we 
are going to take a look at, but I would hope that you would at 
least allow us to go through that and be flexible with us in 
saying if we don't have a good strategy, let us make sure we 
have a good one, because I think the Brits decided they weren't 
going to do that capability, and then they got in the Falkland 
Island war and just about lost it because they hadn't planned 
to be able to get their marines on the shore.
    So I just wanted to allow you to respond to my rambling 
here a little bit. But we want to work with a team. That is my 
main point with you. But we need a little bit of a heads-up 
before you make your decisive moves. Thank you, sir.
    Secretary Gates. First of all, on the EFV, let me just say 
publicly and for the record, the Department of Defense totally 
supports the Marine Corps in a firm requirement for an 
amphibious assault capability for the Marines. We just don't 
want to spend $15 billion, which is virtually all of the Marine 
Corps' ground vehicle procurement budget, for enough vehicles 
to take 4,000 out of 202,000 Marines from ship to shore.
    Now, I think the Commandant--and it should be clear, this 
was a recommendation from the Commandant to the Secretary of 
the Navy, and from them to me. And I think we should also 
understand the Commandant does have an alternative plan in 
terms of first accelerating the Marine personnel carrier; 
second, upgrading part of the existing amphibious assault 
vehicle fleet; and then third, designing a new assault--
amphibious assault vehicle, but one without the expensive 
exquisite capabilities of the EFV. So there is a commitment to 
this, and there is money in the fiscal year 2012 budget to 
begin pursuing this.
    And with respect to your first observation, I would just 
say that, first of all, I think that most of the members of 
this committee believe that I have been pretty honest, pretty 
forthcoming, and candid and transparent ever since taking this 
job, and I fully recognize the constitutional role of Congress 
with respect to our military forces. And, in fact, in my first 
commencement address at the Naval Academy, I spoke to the 
midshipmen about that very fact and the importance of Congress 
and for them to stay apolitical, among other things.
    But at the same time, I have to have a disciplined decision 
process inside the Department of Defense. And to tell you the 
truth, until a few years ago, the place leaked like a sieve, 
and I couldn't make an internal decision without it being in 
the newspapers or that process being in the newspapers. And so 
I have tried to instill some discipline in the Department, and 
the truth is that by going out on January 6th with what we have 
in mind for the fiscal year 2012 budget, this committee and its 
counterpart in the Senate got a 6-week head start in evaluating 
the fiscal year 2012 budget over every other committee in 
Congress and every other part of the President's budget. And I 
got the President's approval to go ahead and do that.
    The same thing happened in the spring of 2009 when I came 
up. I made a lot of decisions in the spring of 2009 on 
programs. Thirty-three of them came up here, all of the major 
ones, And in every single one of those, Congress had an 
opportunity to evaluate it and decide whether to go forward or 
not. Right now, 32 of the 33 are in law.
    So I think that I absolutely agree with you, we need to do 
this as a team. But I also have to have a disciplined decision 
process inside the Department of Defense so that I can get 
everybody's point of view, people can speak up in meetings, can 
disagree, and we can work things out before making a decision.
    Mr. Akin. Thank you, Mr. Chairman.
    The Chairman. Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service. The highest 
compliment I can pay you is that you reflect the same level of 
excellence of the men and women that you lead, and we 
appreciate all three of your service to our country.
    I apologize for not being personally present for your 
testimony, but I have read it. And, Mr. Secretary, I wanted to 
direct your attention to page 4 of your written testimony, 
which goes into a list of the savings that you are proposing.
    First let me thank you for proposing them. I think too 
often the debate here has been trivialized by people who, I 
think incorrectly, say our military budget is just too large 
because it looks too large without being able to talk about the 
needs the country has, and then others who would look at any 
reduction as somehow a threat to national security without real 
and fair analysis. I cannot think of a person better suited to 
lead us to a mature discussion of this than you, and I thank 
you for taking that leadership role.
    I want to ask you a couple of questions. You talk about $11 
billion over the, I guess, the 5-year window from resetting 
missions, priorities, functions for defense agencies and OSD 
[Office of the Secretary of Defense]. What does that mean more 
specifically?
    Secretary Gates. Let me answer quickly and then ask Mr. 
Hale to elaborate.
    What we have asked every defense agency and every part of 
the Office of the Secretary of Defense to do is to what we call 
rebaseline their activities; just start with a clean sheet of 
paper, what are you doing, what should you be doing, and how 
many people does it take to do that. And so this is one of the 
areas in which we are able to shed staff contractors, in which 
we are able to reduce the number of people that are working in 
these areas. We are consolidating some activities. We are 
eliminating other activities. And so it really has to do on the 
civilian side of the Department how do we make the defense 
agencies and OSD itself more efficient and find savings. So 
that is the basic umbrella.
    Mr. Andrews. If I may, this goes to your premise of your 
earlier arguments, which I understand as being finding ways to 
make more efficient what we do in our logistical operations so 
that we can become more effective in our actual defense 
activities. Is that a fair summary of what you are trying to 
do?
    Secretary Gates. Yes, sir. And the defense agencies have a 
lot of people and a lot of money, and they have grown a lot 
over the last decade. And frankly, we thought that it was time 
to take a fresh look at all of this, and I think it has been a 
long time since anybody has really gone into this in the way we 
have.
    Mr. Andrews. Because I am one who would be eager to try to 
work with you to find more savings in these and other areas. 
And, in fact, I think you will find that there are members of 
both parties willing to do that.
    Secretary Gates. I think there are two areas where we have 
not realized the opportunities that we have. After all, we came 
up with $178 billion worth of structural changes, overhead 
changes, economic changes in the space of about 6 or 8 months. 
There are two areas, for example, where I think we have the 
opportunity to save a great deal more money. One is in 
acquisitions, which we have just been talking about, but in 
negotiating smarter, better contracts. And we have seen this 
already on the SSBN-X, on the LCS, on several different 
programs, on space satellites.
    The other, though, is in information technology. And we 
have got to start on that in this effort, but it is just 
complex enough that we haven't gotten as far as we would like.
    But I think those are just two areas where we could do a 
lot more.
    Mr. Andrews. Many of us, Mr. Secretary, are eager to be 
your partner in that effort.
    I want to thank Secretary Hale in particular for being very 
accessible and very precise whenever we need to speak to him.
    Let me say one thing that I would leave you with that I 
would take some personal responsibility for and hope that some 
of our colleagues would. You have a billion dollars for 
eliminating unnecessary studies and internal reports. A lot of 
them emanate from us. And there is a tendency when we want to 
try to change the law to settle for, well, we will just put a 
provision in and ask the Pentagon to do a report. As someone 
who has violated that rule myself, I would be willing to try to 
not do that in the future and try to urge our colleagues to do 
the same thing.
    Secretary Gates. We will give you some ammunition. From now 
on all reports, whether they are internally commissioned or 
externally commissioned, will on the front page have what it 
costs to prepare the report.
    Mr. Andrews. You should also put the name of the person who 
asked for it.
    Thank you, Mr. Secretary.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And, Mr. Secretary, thank you for being here today. And I 
want to just say how much we respect your office. And I hope 
that you won't conclude that it is disrespectful if we try to 
get your answers concise enough to fit into the 5 minutes we 
have, but it is just oftentimes so difficult for many of us, at 
least on this side, to get information from the Department of 
Defense.
    One of the things that we saw on January the 26th when your 
Deputy Secretary Mr. Lynn was here, he testified that the 
Department had failed to comply with the law requiring audited 
financial statements be filed annually in the years 2007, 2008, 
2009, 2010, all years, of course, that you were Secretary of 
Defense. And my first question is, for any of those years, 
2007, 2008, 2009 or 2010, were you unaware that the law 
required that DOD [Department of Defense] file audited 
financial statements?
    Secretary Gates. I certainly did not--was not aware that we 
were in violation of the law.
    Mr. Forbes. So you did not know that you were in violation 
of the law.
    The second question. Mr. Lynn further testified that no 
such statements would be filed this year, but he said that it 
was a priority of the Department of Defense that you get in 
compliance, and that you had a plan to do it. Has that always 
been a priority of yours since you have been Secretary of 
Defense?
    Secretary Gates. Yes, it has. And, in fact, I think if you 
go back to testimony 4 years ago, the person who had the job 
before Mr. Hale had begun the planning and execution of getting 
us to a position where we could comply with the CFO [Chief 
Financial Officer] law----
    Mr. Forbes. Mr. Secretary, if I could--I don't know if we 
have the opportunity to put it up on the screen, but hopefully 
we will, and on the monitors; but if not, there is a chart 
right over here--and there it is. It might be hard to see, but 
you can see this screen over here, and I am wondering if you 
recognize that Web site at all. And the reason I say--just to 
refresh your memory, there is a copy of it here. I know it is 
hard to see. But this is your Web site, and this is live. This 
is not something on the screen that we made a copy of. This is 
what you would have seen at that testimony you are talking 
about in 2007, or if we had done it in 2008, 2009, 2010, or if 
anybody were to go to it today. And it says, this Web site is 
designed to provide all the information you need to understand 
the budget and financial management policy of the Department of 
Defense.
    Mr. Secretary, what it clearly states on there, if we had 
had that testimony then, is that the Department of Defense 
would have been in 100 percent compliance and given 100 percent 
audited financial statements by the year 2010. But in point of 
fact, according to what Mr. Lynn testified, the Department was 
off 100 percent. Is that not accurate in that we have filed no 
audited financial statements?
    Secretary Gates. We certainly have not filed clean audits. 
That is for sure.
    Mr. Forbes. And, Mr. Secretary, the question I would have 
for you is would you authorize--you have been given by the 
taxpayers of this country $2.5 trillion essentially since you 
have been Secretary of Defense. Would you authorize the 
expenditures of these sums if you were not convinced there were 
adequate accounting systems in place to note where they were 
being spent?
    Secretary Gates. Mr. Forbes, I am confident that we have 
the financial processes, all of which were, by the way, 
designed for budgetary planning and which the Congress has 
relied on for a long time, that give me confidence that we know 
where the money is going. Can we do the kind of audits that are 
required by the CFO? No. But we are spending between 200- and 
$300 million a year to get in compliance. We have a short-term 
and a long-term plan to get there, which I would be happy to 
share with the committee.
    So we understand our obligation to get to this, but the 
reality is we do have systems in place to deal with fraud, to 
deal with other issues, and that provide us with the tools to 
do financial management.
    Mr. Forbes. Mr. Secretary, I don't want to cut you off, but 
I only have about 40 seconds left. And the reality is this: You 
were 100 percent off. And I want to be kind, and I want to be 
respectful, but the reality is that taxpayers have entrusted 
your Department with $2.5 trillion. And here is the way we 
basically repay them with the accounting. You call it 
disciplined decisionmaking, but we have issued gag orders to 
stop people from the Pentagon in talking to Members of Congress 
about where those dollars are; didn't get a shipbuilding plan 
in the year it was required by law; didn't get the aviation 
plan in the year it was required by law; haven't had the 
audited financial statements required by law; and the cuts that 
you give us, Mr. Secretary, we only get backfilled information.
    And, Mr. Chairman, I know my time is up, so I will yield 
back.
    The Chairman. Thank you very much.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And, Secretary Gates and Chairman Mullen, I think we all 
applaud you for your extraordinary service, and I certainly 
want to add my voice as well.
    Since you said, Secretary Gates, that this is your last 
budget, I believe also, Chairman Mullen, is this your last 
budget as well?
    Admiral Mullen. As far as I know.
    Mrs. Davis. Given that, several of my colleagues have asked 
some questions, I think, that have asked you to kind of take 
out of your notes and what is it that concerns you the most, 
whether it is in the budget or outside the budget? And I wonder 
if you could speak just a bit to any disconnect that you see 
between what the needs are and what the budget actually 
reflects? It is a little bit of the ``what keeps you up at 
night'' question, but I would hope that as this is your final, 
if there is anything in particular that you would like to focus 
our attention on that may not have been stated.
    Admiral Mullen. I will take a crack at it. As I look at the 
future, there has been a discussion today about force 
structure, and I worry in the longer run. I think we are okay 
right now, but I worry in the longer run that we align our 
force structure with the national security requirements we have 
as a country. And at some point in time, with the force 
structure we have, we are going to have to start saying there 
is going to be some stuff we are going to need to stop doing.
    I worry about resetting from these wars. And it is going to 
take us--we will get 2 years of dwell time here in the next few 
years, but we are not really reset for 2 years as opposed to 
instantaneously when that starts. And so I worry about properly 
resetting during a time where the challenges in the world 
continue to grow. There is no better example than just the last 
couple of weeks, and I think that will continue. You track 
crises back over the course of the time the Secretary has been 
here and I have been in this job, they continue to grow.
    I am comfortable that we have the best military we have 
ever had, our young men and women, and we just need to make 
sure that we sustain that over the long term.
    We will talk a lot about equipment in these hearings. If we 
get it right for our people and our families, we will be fine; 
and if we don't, it will be a real struggle.
    And then in two specific areas, not that we don't have 
challenges, as have been mentioned, but two specific areas that 
are of great concern to me. One is space, and the other is 
cyber. And those are areas that are what I would call too often 
niche areas. They are not anymore. They are domains without 
boundaries, without rules. We have international players as 
well as individuals, particularly on the cyber side; extremely 
dangerous in both realms, particularly in cyber. We have 
invested in that heavily. We have stood up a command. Those are 
initial steps. We have got a long way to go.
    Mrs. Davis. Mr. Secretary, did you want to respond to that?
    Secretary Gates. Since this is my last hearing, I will be 
bold and tell you two things that worry me, and they both have 
to do with Congress. One is the disconnect between the roles 
and missions that have been given to the military by Congress 
and the President, and the discussion of the defense budget now 
and in the future here on the Hill, where it is treated more 
often than not as a math problem.
    You have 18.9 percent of Federal outlays, which, I might 
add, is the lowest percentage of Federal outlays for defense 
other than the late 1990s, early 2000s, since before World War 
II, and yet because we have a half a trillion dollars, then we 
must be part of the problem in terms of the Nation's debt and 
the deficit. I would tell you that on a $1.6 trillion deficit, 
if you cut the Defense Department by 10 percent, which 
operationally would be catastrophic, that is $50 billion. You 
haven't gotten very far toward dealing with the deficit.
    The second thing that I worry about is that what we have 
found in the executive branch is that the elements of the 
different parts of the executive branch are increasingly 
integrated in the way they deal with problems, the State 
Department and the Defense Department and AID [Agency for 
International Development], and yet the jurisdictional lines 
here on the Hill are such that you don't get to see the overall 
national security picture that we see in the situation room or 
that the President sees that brings intelligence, and the State 
Department, and Defense and these different elements together 
and integrate those. And I think it is a challenge because this 
is becoming more and more the case in the problems that the 
Nation is dealing with in national security, and yet Congress 
continues to have essentially a stovepipe approach to dealing 
with these issues. And this is one of the reasons the State 
Department doesn't get enough money.
    So as you all think about the future, those are two things 
that concern me.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman. I will submit other questions for 
the record. Thank you.
    The Chairman. Thank you.
    We are going to turn to Mr. Wilson, and then we are going 
to take a 5-minute short break.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Admiral, Mr. Secretary, Mr. Secretary, thank you for 
being here today. In particular, Admiral and Secretary Gates, I 
want to thank you for your service as you highlight the 
conclusion of your careers in the military, serving our service 
members.
    I do have the same concern of our chairman. It is a 
bipartisan concern, I was listening to Congressman Reyes, and 
that is with the drawdown, with the force reduction in the Army 
and Marine Corps, I am very concerned on the effect on dwell 
time. I am very concerned about the effect on morale, morale of 
the service members, on their families, the consequence of them 
not feeling secure as to their military futures, of people who 
have been so dedicated to our country.
    With that in mind--and it has been stated that it is going 
to be conditions-based--Mr. Secretary, what flexibility will 
there be for the service chiefs in terms of the conditions? And 
it is my view that the conditions have even changed in the last 
month with the instability in the Middle East, the potential 
facing an asymmetric enemy on a broader scale that would 
require more boots on the ground.
    Secretary Gates. Well, I think that your concern about an 
asymmetric threat is correct, and I would tell you that I think 
that those who will face this asymmetric threat to the greatest 
extent are, in fact, the Air Force and the Navy, particularly 
as we look at capabilities that China and others are 
developing, the kinds of activities that the Iranians are 
engaged in, and the North Koreans and so on. That is why we put 
a freeze on--both the Air Force and the Navy in 2007 were 
drawing down their personnel, and we stopped that. So there are 
no drawdowns planned for the Air Force and the Navy.
    As I have said earlier, the Marine Corps, this is their 
idea, and I think you need to talk to General Amos and get his 
thinking and his logic in terms of why the Marine Corps ought 
to be smaller and lighter, assuming we come out of Afghanistan.
    And I would tell you the kinds of instability that we are 
seeing in the Middle East now, it is difficult for me to 
imagine circumstances in which we would send U.S. ground forces 
in any of those situations. Those are problems that are 
emanating from within those countries, and it is primarily a 
diplomatic challenge for us, although I would say if you ever 
wanted proof of the value--as the chairman said in his opening 
statement, of the value of our military assistance to Egypt 
over the past 30 years, it has been in the behavior of the 
Egyptian Army over the past 3 weeks and their professionalism 
in dealing with the kinds of situations they have.
    But, look, 2015 is a long way away, and I think that the 
Department--and we are talking about $6 billion. So I think 
that the service chiefs have a lot of flexibility in terms of--
if they determine in 2013, 2014, thereabouts that drawing down 
from 547,000 or from 187,000 in the case of the Marine Corps 
is--or 202,000, rather, then they can obviously make that 
pitch.
    I would tell you, though, a lot is going to depend on who 
is the Secretary of Defense and who is the President, because 
there had been opposition within the Department of Defense to 
increasing end strength when I arrived, and that is why it 
hasn't happened. The previous chairman of this committee had 
been a strong advocate of increasing end strength, and many of 
you had been as well, but it didn't happen until you had a 
different Secretary of Defense. So that will matter, too, as 
well as the service chiefs.
    Mr. Wilson. And I do want to commend the surge, I think 
successful, in Afghanistan. I am very grateful that so many of 
the Army personnel were trained at Fort Jackson, and I 
represent Parris Island Marines, making such a difference.
    Also in regard, Secretary, to the National Guard, what is 
the status of our equipping of the National Guard for their 
domestic and foreign capabilities?
    Secretary Gates. This is a real success story. This is 
something that I am pretty proud of. When I came to this job, 
the equipment on hand across the Nation on average for the 
National Guard was about 40 percent. It is now in the mid-70s. 
The historical equipment on hand for the Guard is about 70 
percent. So we are well above that. But more importantly than 
that is that they are getting first-line equipment. They are 
not getting hand-me-downs from the Active Force. They are 
getting the same high-quality, high-tech equipment that the 
Active Force is.
    Mr. Wilson. Thank you very much.
    The Chairman. The committee will take a 5-minute recess and 
reconvene at 10 minutes to 12:00.
    [Recess.]
    The Chairman. The committee will come to order. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Gates, the first question is for you. Do you have a 
date for the tanker decision? Sorry. Secretary Gates. Do you 
have a date for the tanker decision?
    Secretary Gates. Sorry?
    Mr. Larsen. Do you have a date for the tanker decision?
    Secretary Gates. No. But I would say within the next 2 to 3 
weeks, something like that.
    Mr. Larsen. Okay. Thanks.
    Admiral Mullen, your written testimony discussed the pooled 
resources idea. Your oral testimony actually gave a title, and 
that is about as much right now as we have. You both have 
testified even today about the need to combine State and 
Defense activities. Can you talk a little bit more about how 
you envision this collaborative full resource idea and when we 
can expect to see actual language?
    Admiral Mullen. From my perspective, I think what has 
worked with State--between State and DOD is what I would call 
this dual-key capability that assigns responsibilities to the 
Secretary of Defense, Secretary of State to both agree that we 
are going to spend the money a certain way. And I think that is 
reflective of the requirements which continue to emerge. I 
mean, it gets focused on Iraq and, to some degree, in 
Afghanistan, but it is really the preventive aspect of this, 
the investment ahead of time so we are not in conflict. In 
great part, to the Special Forces, for us, for example, is one 
area. But we can't do it all, and that is really what this 
speaks to.
    I think in terms of the, you know, level of detail and 
proposal, I mean, I think we can get that to you, you know, 
relatively quickly. The language is there right now, as I said. 
It is $50 million initially with the language we would like, 
language which would allow us to reprogram an additional 450-, 
you know, out of our money as needs emerge. Often times this is 
a speed issue, I mean, as opposed to we need to do it now as 
these emerge, as opposed to take months or maybe even a year.
    Mr. Larsen. Do you envision that you need additional 
authorities, or do you just need reprogramming authority?
    Admiral Mullen. I think we need both. We will need 
authorities for the $50 million and then reprogramming money on 
top of that. Authorities. Sorry.
    Mr. Larsen. And then authorities for a decision structure 
as well?
    Admiral Mullen. Right. Yeah. And support for a decision 
structure.
    Secretary Gates. So you can influence your colleagues and 
the other committee, the $50 million is the State Department 
contribution. The larger number is ours.
    Mr. Larsen. That was the next question. I think it is 
important that both agencies have skin in the game, if you 
will, to make this work, and I think probably for it to work 
around here, it is going to have to look that way as well.
    So I will look forward to some actual language and help 
from you all on that.
    The continuing resolution on the floor today and the next 
day includes a hit to the Department of Energy's [DOE] budget 
on nonproliferation of about $600 million, if I am not 
mistaken, below the 2011 request. This is for nuclear 
nonproliferation. And this is the loose nuclear materials 
piece, in addition to some other things, which is something 
that is in our jurisdiction as well.
    Can you talk about or have you looked at what the impact of 
that hit will be on our ability?
    Admiral Mullen. No, I have not.
    Mr. Larsen. Okay. Can you--well, we only have a couple of 
days. I won't ask you to get back to me in the next 2 days on 
that one because we are voting, presumably tomorrow, on that 
one. Yeah.
    Can you speak, though, to the 2012 request for the 
Department of Energy's nuclear non--the nonproliferation budget 
request as it applies to our jurisdiction?
    Secretary Gates. To be honest, Mr. Larsen, the only part of 
the energy budget that I have any familiarity with is for the 
NNSA [National Nuclear Security Administration] stuff on the 
nuclear weapons. I am just not familiar.
    Mr. Larsen. Well, pieces of that is in NNSA. Okay. That is 
fine.
    Can you then finally discuss the budget request perhaps, 
Secretary Gates, here in the last couple of seconds, about the 
budget request for the phased adaptive approach [PAA] for 
missile defense, supporting not only phase 1, which started 
implementation this year, but what the budget request looks 
like for PAA on phases 2 through 4, what kind of dollars are in 
there to continue moving this along?
    Secretary Gates. I can't parse the specific elements of it. 
I do know that the overall budget for missile defense is going 
from $10.2- to $10.7 billion. So we are putting another half a 
billion dollars into it. And there is money for more Aegis 
ships, more of the transportable radars like we have in Egypt, 
like we have in Israel and Japan right now. And then there are 
also continuing investments in the Ground-Based Interceptor 
[GBI] system. So there is money--as well as some of the high-
level technologies like high-energy lasers and precision 
tracking from space. So there is a significant increase in 
missile defense, including being able to go forward with the 
phased adaptive array defense in Europe.
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Secretary, thank you. Thank you for your letter 
yesterday in which you announced your support for a Federal 
uniform standard of custody protection for our men and women in 
uniform. I get to thank you on behalf of myself; this 
committee; the staff of this committee; and Eva Slusher from 
Kentucky, who had lost her daughter in a custody battle as a 
result of a family law court judge using her time of service 
against her in a custody battle that she ultimately won and got 
her daughter back.
    I know that you know that unfortunately throughout our 
country, there are family law courts where the judge will use 
the time away that someone has been deployed, or even the 
threat of deployment, as a sole factor for determining custody, 
resulting in our men and women who should be being honored for 
their service actually being disadvantaged for their service.
    I know that you know that this House has passed this in 
legislation form five times, four as part of the National 
Defense Authorization Act and once as part of a stand-alone 
bill. Your letter indicates that you will be assigning your 
staff with the responsibility to negotiate language that can 
ultimately be enacted in legislation to provide that 
protection.
    This is a battle that has been going on for 5 years now in 
legislation, and I know that you know this doesn't just affect 
our service members who are currently in custody battles--and 
we are not asking for them to be advantaged; we just don't want 
them to be disadvantaged--but it also affects our service 
members who have the stress of the concern that they may be 
subject to a custody battle and don't have a national standard 
of which they can have confidence.
    Many of these custody battles involve three States; the 
State in which the original custody order was issued, the State 
where the service member is currently assigned, and the State 
in which the child currently lives. So the national standard is 
going to be so important to provide them that confidence.
    So my first question to you--and I have two other topics I 
want to get to--is I believe that this should not wait for the 
National Defense Authorization Act this year. This House has 
passed it as a stand-alone bill. It has passed it on suspension 
on the House floor. We passed it four other times as part of 
the National Defense Authorization Act. If we roll up our 
sleeves, we can get this done and pass this very quickly 
through the House. I would like to have your support for us to 
get to work on this right away.
    Secretary Gates. We certainly will do that. Whether you can 
get it through the House or not in a hurry, I guess, is up to 
you all.
    Mr. Turner. That would be excellent.
    The second thing I want to talk to you about is the issue 
of sexual assault. In my district we had a woman, Maria 
Lauterbach, who was tragically murdered after making 
allegations of sexual assault. I have worked with Jane Harman 
and Representative Tsongas on provisions that we have gotten 
enacted over the past several years that addressed the issue of 
sexual assault.
    A New York Times article, in reporting the lawsuit that has 
been filed, identifies that the legislative accomplishments so 
far are modest. We actually had in this last National Defense 
Authorization Act provisions that went to the issue of sexual 
assault, one of which would have provided a mechanism for 
expedited consideration and priority for base transfers for 
those who have been subject to sexual assault, another 
providing privileged communication between a victim and an 
assigned victim advocate.
    All of those did not make it into the final bill. I just 
want to bring them to your attention and hope that we would 
have DOD's support as we move to try to place those provisions 
in the National Defense Authorization Act this year.
    And then my third topic is NNSA. I am chairman of the 
Strategic Forces Subcommittee. One of the things that I have 
been concerned about with this continuing resolution process 
and then the upcoming fiscal year 2012 budget is that NNSA, 
being part of DOE, has not been recognized as really being part 
of the defense infrastructure. So when people talk about 
cutting everything that is non-security-related, so many times 
they are missed and actually subject to a cut.
    As we look to the importance of NNSA and the additional 
funding that they need to respond to supporting our nuclear 
infrastructure, I would appreciate your comments on certainly 
both their importance, the importance of this funding, and also 
the characterization that should be made that NNSA is certainly 
part of our national security infrastructure and certainly does 
very important defense work.
    Secretary Gates. Well, I simply can endorse the last two 
statements. I mean, it is incredibly important, and it clearly 
is intimately tied to our national security and should be 
regarded as part of the security component.
    Secretary Hale. I would just add one point from a budgetary 
standpoint. From 2013 to 2016, we actually have some money in 
the defense budget, which on an annual basis will be 
transferred. And in NNSA the desire was to emphasize the 
partnership between our two organizations. As the Secretary 
said, they are very important to meeting our nuclear needs.
    Mr. Turner. Excellent. Thank you both.
    Mr. Chairman.
    The Chairman. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman, Mr. 
Secretary and Admiral Mullen. Thank you for appearing today and 
providing us with your testimony as well as your service.
    First, I just have one simple question. I guess it would be 
an up-and-down answer. I want to thank you for your support of 
H.R. 44, the Guam war claims bill that was introduced last 
Congress. This proposed legislation is very important to the 
Chamorros on Guam, who survived the brutal enemy occupation 
during World War II. Although we were unsuccessful last 
Congress in the Senate, I have reintroduced the compromise 
version of H.R. 44, which eliminates the payment of claims to 
descendants of those that suffered personal injury during the 
occupation.
    Now, can we expect the same level of support from the 
Department of Defense as we did in the 111th Congress? The 
people of Guam, Mr. Secretary, are being asked to provide 
additional land for firing ranges and the main base area for 
the current buildup. And resolution of Guam war claims is going 
to be critical to overcoming historical injustices.
    Secretary Gates. Well, as Deputy Secretary Lynn testified, 
we continue to support the Department of Justice position on 
this.
    Ms. Bordallo. So I guess the answer would be yes.
    Secretary Gates. Yes.
    Ms. Bordallo. My second question. I am encouraged to see 
the administration continuing to support the so-called Guam 
International Agreement with military construction funding for 
the realignment of the Marines from Okinawa to Guam. I am also 
encouraged by the funding of civilian infrastructure needs in 
Guam.
    My question is for Secretary Gates. Given the strategic 
importance of Guam and our Nation's ongoing efforts to reshape 
our military presence in the Pacific theater, can you tell me 
what the status is of the Department of Defense's roadmap for 
realigning U.S. forces in Japan? Specifically, how is the 
reconfiguration of Camp Schwab facilities and the adjacent 
water surface areas to accommodate the Futenma replacement 
facility project proceeding? And when can we expect to see 
tangible progress on Okinawa for a Futenma replacement 
facility?
    Secretary Gates. My hope is--well, I discussed this when I 
was in Japan just a few weeks ago. I feel like the Japanese 
Government is making a serious effort to resolve the Futenma 
issue. My hope is that we will get resolution, particularly on 
the configuration of the airfield or the runways, perhaps later 
this spring, and that would then allow us to go forward with 
our planning.
    Until we get the Futenma replacement facility issue 
settled, we really are not in a position to go forward. Without 
resolution of that issue, troops don't leave Okinawa; lands 
don't get returned to the Japanese, to the Okinawans. So these 
are points that I made both publicly and privately when I was 
in Tokyo.
    And so my hope is that we will get resolution of this to a 
sufficient point by sometime later this spring, and we then can 
go forward and work with this committee in terms of that 
planning. And just to clarify a statement that I made to Mr. 
Thornberry, I expect to be around for some months to be able to 
work with you on that.
    Ms. Bordallo. Well, good. That is good. All right.
    My third question is for either Secretary Gates or Chairman 
Mullen. I was pleased to see about $200 million in research and 
development for a next-generation bomber, and I think this is a 
key platform in maintaining a robust long-range strike 
capability.
    Can you explain the rationale behind your decision to build 
a long-range manned bomber with the ability to penetrate 
defended air space? And why is stand-off insufficient to meet 
future combatant command requirements? What are the inherent 
limitations within our existing legacy bomber fleet?
    Admiral Mullen. Actually you almost, ma'am, said it in your 
question. We actually went through a very, very vigorous 
debate, review and analysis to get to the conclusion that this 
should be--that we should invest in a new penetrating stealth 
bomber, and we think that capability is vital for the future. 
We certainly--there is great focus, obviously, on this with 
respect to the Pacific.
    But in a lot of these capabilities that we have developed 
over the years, oftentimes even the area of focus that we might 
use it in changes. So we think it is actually broader than 
that.
    And it was reviewed for both its ability to be developed 
from evolving technology, so it goes to--I think there is a 
very smart acquisition strategy associated with this. This 
isn't going to be exquisite in every way. It is bounded in cost 
and, we think, terrific capabilities that, when combined in the 
platform, will actually result in a revolutionary capability, 
not just overall in terms of our requirements.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I have a 
couple of other questions, but I will enter them into the 
record.
    The Chairman. Thank you very much.
    The Chairman. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. Thank you gentlemen 
for your service, for being here, et cetera, et cetera, adding 
on.
    At the risk of a 15-yard penalty for piling on, I am going 
to go back to the audit issue that Mr. Forbes brought up. It is 
not going to happen. I mean, neither one of you gentlemen--
well, actually none of the three of you will be in place when 
this gets done. That is inherent with the system that we have 
in place where no one is there, and that helps explain somewhat 
why we are not there is because unless it is a key component of 
what you want to get done, it is not going to get done.
    I wish we had the same kind of commitment to auditing this 
Department of Defense's financial statements and/or--or just 
the statement of receipts and disbursements that we have to 
greening the military. I don't think greening the military is a 
core competency of the fight. But yet we all heard testimony 
this morning about all the wonderful things that were done with 
respect to that, and you can't tell us what the differential in 
cost is between doing it that way versus what the standard way 
of doing it, what did it cost us? Do we get a cost benefit for, 
as Mr. Reyes said, taking Fort Bliss off the grid? We don't 
know what that costs and those differentials.
    The story in the Washington Post that Ms. Sanchez mentioned 
where folks who have defrauded the government have been awarded 
additional contracts for some $285 billion, that is an internal 
control issue. Internal controls are an integral part of a good 
financial system that allows you to know where your money is 
going and know where your money is not going. So every time we 
have these kinds of stories, it adds to the confusion in the 
area.
    I go home to folks in west Texas, and when they find out 
the Department of Defense can't be audited, they are stunned. 
It has been on the books a long, long time. And, you know, Mr. 
Gates, your revelation that you've got thousands of auditors 
and 10,000 lawyers was kind of eye-opening for those of us on 
this side of the deal.
    I want to brag on the Marine Corps. They got very close 
this year--let me step back. Secretary Hale and I and his team 
and others, I have had extensive conversations with them, 
briefings. I have been over to the Pentagon and talked to them. 
They get it. They are working really hard, but as Petraeus said 
last year, hard is not impossible. And as Keith Alexander says, 
nothing is impossible for those who don't have to do it, and I 
am one of those who don't have to do it, but you do. So I want 
to brag on the guys that are working. The Marine Corps is 
getting close.
    But the question is, how do you leave a legacy--which 
everybody wants to leave good legacies--how do you leave a 
legacy in place that keeps this process moving, that you hand 
off, you get it so systemically ingrained into the team that 
this is important? We need to know where the money is going. We 
need to be able to have the, quote/unquote, ``Good Housekeeping 
Seal of Approval'' so that the general public gains additional 
confidence in the one entity of government that the general 
public generally has great confidence in, and that is in the 
Department of Defense. So how do you leave that legacy in place 
to make sure of this, we don't lose ground because you are not 
going to be responsible when 2017 rolls around and it is not 
done?
    Secretary Gates. Well, first of all, I think that Mr. Hale 
and I have talked about this. He has asked for my support in 
terms of communicating to the rest of the Department that this 
is a high priority, and I have provided that support.
    But to answer your question of how I know that this will 
continue after I am gone, that is because Mr. Hale will not be 
gone, and he will continue in this, and he is committed to 
this, and I think he has the plan in place, as I have mentioned 
earlier, both short term and longer term, in terms of getting 
us to a point where we are in compliance by 2017.
    Mr. Conaway. Well, we are going to keep tracking it. I hope 
to be able to get the matrix in place so that you can measure 
progress against that timeline, and we can see it as well. But 
it also begs the question you have got $100 billion of 
reprogramming money; in effect, dollars you say your team has 
come together and said we don't need to do $100 billion worth 
of this, we would rather do $100 billion worth of that over 
that timeframe. How are you going to track that? How are you 
going to make sure that that $100 billion of reprogramming 
doesn't morph into the $78 billion--the commitment to save the 
$78 billion over these next timeframes? Because I can see very 
easily where you would wind up with--you fulfill the 78- number 
by siphoning off numbers, monies that would have otherwise been 
reprogrammed within the Department of Defense.
    Secretary Hale. Mr. Conaway, I would like to offer a 
defense of the defense financial management system that may be 
unpopular. First, I am fully committed to audits. I understand 
we need them for public confidence. But the fact that we can't 
pass commercial audit standards does not mean we have no idea 
where we are spending the money that you send us.
    We have got 55,000 people in the defense community, the 
financial community. They are well trained, and that is one of 
their prime jobs, as is the job of many others. We have several 
thousand auditors watching us. And I note if we had no idea 
what we were doing with the money, we would have rampant 
Antideficiency Act [ADA] violations.
    Over the last 5 years, about two-tenths of our budget has 
been associated with ADAs. That is more than I would like, but 
it is pretty small, and it is smaller, I might add, than the 
percentages of the nondefense agencies, all of whom have clean 
audit opinions.
    So I think we do know what we are doing with the money you 
give us, and we can account for it. We can't pass commercial 
audit standards, and we need to do that to reassure the public 
we are good stewards of their money, and I am committed to 
doing it, and I am working hard.
    Mr. Conaway. Thank you, Mr. Chairman.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. And I want to thank 
the witnesses for their testimony today.
    I was at the first hearing after you were appointed 
Secretary. I was a brand-new Member of Congress, remember well 
the fact you walked in and announced we were going to increase 
end strength, which has been referred to here this morning.
    I also just would note that that was also the hearing where 
you announced that we were going to make a commitment to MRAP 
[Mine Resistant Ambush Protected vehicle] deployment in Iraq 
and Afghanistan, which only a handful, relatively speaking, 
were in theater.
    I just want to share with you that last Easter there was a 
Connecticut National Guard unit that was riding in an MRAP in 
Laghman Province, that unfortunately a 200-pound IED was 
detonated. It lifted the MRAP many feet in the air, came 
crashing down. Everyone survived. There were some pretty bad 
injuries, but everyone is alive. There was no question that if 
a flat-bottom Humvee had been part of that type of event, it 
wouldn't have been the case.
    I am friends with one of the mothers of one of those 
soldiers who, you know, is a lawyer in practice in the New 
Haven area, and, you know, she said to me she didn't know what 
an MRAP was to M&M. But she said whoever was responsible for 
making sure that those types of units were in the theater, just 
thank them for her. And I am doing that publicly, and to you, 
too, Admiral Mullen, because you were a part of that 
extraordinary effort to finally get those things over there to 
protect our troops. So thank you.
    I want to just touch on two quick things that people talk a 
little bit about in Connecticut. The alternate engine, that was 
part of the debate last night. And one of the comments that was 
made by Admiral Roughead last year when this issue came up was 
that aside from, you know, the claims that the up-front 
production costs of a second engine would pay off over time, I 
mean, he pointed out the fact that on aircraft carriers, there 
is just no space capacity to deal with repairing and 
maintaining two separate engine systems.
    Obviously we have an admiral here who knows these ships 
quite well. And I just wonder if you could sort of comment on 
the, I think, overstated claims of savings when you think about 
the operational headaches that a second engine would create.
    Admiral Mullen. One of the things we do in this town is we 
focus on getting stuff out the door, as opposed to what it 
costs for a life cycle. And it certainly applies on aircraft 
carriers, but it applies actually in all three services. This 
is two separate lines, two separate training, two separate 
maintenance manuals, two separate supply sources, all those 
kinds of things, and they lag each other significantly.
    I mean, I have been doing money a long time. I cannot make 
sense out of this second engine. It is 2 to 3 years behind. It 
is not going to compete, quite frankly.
    We cannot afford to buy the second engine, I mean, from my 
perspective, and there have been multiple airplanes that are 
single-engine airplanes that are single-sourced. So I don't 
accept that 95 percent of the fleet is going to go down at 
once. It just doesn't happen. We are better than that.
    You know, the first engine will be, I think, more than 
adequate to meet the needs that we have for that airplane. And 
if I thought any different, I would, you know, be encouraging 
this engine, the second engine.
    I just categorically can't see that it is going to make any 
difference. It is going to cost us a lot of money not just to 
get it out of the door, but over the life of its--over the life 
cycle.
    Mr. Courtney. And for the proponents who keep bringing up 
the F-16, I mean, the fact is we are in a different world than 
25 years ago as far as testing these engines, right? I mean, 
the risk level is just not what it was.
    Admiral Mullen. Absolutely.
    Mr. Courtney. I just wanted to at least get your statement 
on the record on that.
    Secretary Gates. It is worth noting that not only the F-16 
have a single source, but also the F-22--or the F-18, rather, 
have a single source, but also the F-22. And the F-135 engine 
is a derivative of the F-22 engine. So the likelihood of any 
kind of a serious design failure is very small.
    Mr. Courtney. Thank you.
    Real quick. I have only got a minute left, but I just want 
to at least note for the record again, a year ago we were 
talking about a $7 billion SSBN submarine. Obviously, we were 
at milestone A. We have now brought that figure down to $4.9 
billion. Congratulations.
    It is still, as you point out, going to be a long-term 
challenge for the shipbuilding budget. Admiral Roughead makes 
the argument that it should be treated as a national strategic 
asset, which--I see you smiling because I think you smiled last 
time I asked you about this.
    But the fact is, you know, there is precedent with missile 
defense for treating it outside of a normal defense budget. And 
I just--that is a solution, isn't it, if we could figure out a 
way to make it happen?
    Admiral Mullen. It is a third of the shipbuilding budget. I 
mean, if the shipbuilding budget has to absorb that, that is 
this year, it would break the shipbuilding budget.
    And to the Secretary's point earlier about building other 
capabilities, that solution that you describe has been talked 
about for years. But what it boils down to is obviously 
resourcing this, resourcing a shipbuilding plan which is going 
to get us to 313 and beyond, and with the SSBN arrival, that is 
not going to happen.
    So how you resource it is the question. One way to do it is 
literally at the national level as opposed to inside the 
service budget, but it is a huge challenge just because of the 
money that we are going to have to devote to it.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Secretary Gates, Chairman Mullen, thank you so much for 
joining us. Thank you for your service.
    I want to begin with Chairman Mullen and follow up on my 
colleague's question concerning shipbuilding. As you know, if 
you go back to 2006, the shipbuilding plan there said 313 
ships, and we have heard that number year after year after 
year. We find ourselves today with 286 ships. We find ourselves 
with an aging class of Perry frigates that are going to be 
phasing out. We find ourselves with six Los Angeles class 
submarines that are 30 years or older. We find ourselves in an 
environment with a very, very high ops tempo putting ships to 
sea, pushing maintenance schedules, pushing life cycle 
capability management elements.
    My question is this: Is it anywhere in the spectrum of 
reality that we will have a 313-ship Navy, and, if so, how are 
we going to integrate these older ships that are coming to the 
end of their service lives and making sure that we are building 
at a pace where we are building more ships than what we are 
retiring? And as you know now, we are at a pace where we are 
retiring more ships than what we are bringing into the fleet. 
And I just wanted to get your perspective on that.
    Admiral Mullen. Well, actually this budget, which is, I 
think, 10 ships and $15 billion is not insignificant compared 
to where we were a few years ago.
    Secondly, I have been someone that I believe we have to get 
ships to their service life. That is an easy thing to say. It 
is hard to do, because you have to make that investment over 
the course of a ship's service life, and oftentimes the Navy 
hasn't done that specifically.
    What gets lost in this discussion about the number of ships 
that we have, and I actually, as a CNO [Chief of Naval 
Operations], did the analysis that created the minimum level 
for the Navy of 313 ships, but it was my belief back then we 
were on a glide slope to get to 220 or 230 or 240 because it 
was just out of control going down because of the cost and lots 
of other things, the number of ships that we were going to have 
to decommission. So it is not at 313, but it actually has 
grown, and I think we have to just keep heading in that 
direction. That is key; a number of ways to do that.
    So, and as the Secretary has spoken--and he and I have 
talked about this many times--you know, as these wars wind 
down, we are going to, I think, have to depend more and more on 
our Air Force and our Navy in the world that we are living in. 
And so how do we make those investments? Because what gets lost 
in the discussion here is their op tempo has been pretty high. 
And we talk about the op tempo for the Army and the Marine 
Corps and the Special Forces. That is at the top, I understand 
that. That is the toughest op tempo. But if you look at the op 
tempo of the Air Force and the Navy since 9/11, it is up as 
well. They weren't sitting back at that point in time. So we 
are wearing them out, and we have to focus on those 
modernization programs. They provide an enormous strategic 
capability for us, given the world that we are living in, and 
we have to invest in it as well.
    Mr. Wittman. Are you in the position to make the commitment 
to make sure that on life cycle management that you are doing 
everything, including the inspection programs to make sure they 
are robust and the financial commitment to make sure these 
ships get to the yard on time? Because as you know, any little 
glitch in the schedule there really affects a sub-zero.
    Is the commitment there to make sure that we are going to 
get to the end of the service life of these ships to make sure 
that we are getting that, or have some chance of getting to the 
313?
    Secretary Gates. Before the chairman answers that question, 
may I say that if we end up with a yearlong continuing 
resolution, those ships are not going to make it into 
maintenance.
    Mr. Wittman. Okay.
    Admiral Mullen. I also, actually, just to the CR, I was 
struck that you lost a DDG [guided missile destroyer] and a 
submarine. We worked for years to get to two submarines a year, 
and literally within a few months it falls out. You are not 
going to get that back certainly in this budget. This is a 
really a discussion better had by Admiral Roughead 
specifically.
    I know the Navy has invested more in terms of its 
maintenance in order to sustain or get to extended life. That 
said, he has also made a decision to decommission some ships 
before that so that he can invest in some of the ships that he 
thinks he needs for the future.
    Mr. Wittman. Secretary, I want to follow up quickly with 
you. We talk about the QDR being the issue in the National 
Military Strategy. In their current projections, do they keep 
in mind where end strength may be with your projections about 
reducing end strength for both the Marine Corps and the Army in 
how the QDR estimates that in National Military Strategy?
    Admiral Mullen. Yes, they do.
    Mr. Wittman. They do.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Gentlemen, we have a very strong agreement on the CR. We 
have a very strong disagreement on the second engine. In my 
district, it doesn't matter, so I don't have a parochial 
interest in this, but I do have a strong opinion.
    But I would like to ask you, you both said this is your 
last hearing. I could probably say with great certainty that 
none of us, none of the three of us, will be here in 10 years. 
How long are we going to be buying the engine for the F-35?
    Admiral Mullen. Oh, I would say over the course of 2 to 3 
decades.
    The Chairman. Okay. So 20, 30 years.
    Admiral Mullen. Right.
    The Chairman. Ten years from now if we have decided on the 
one engine, if, for whatever reason, the company comes to us 
and says, I have to raise my costs substantially, what do you 
do?
    Admiral Mullen. Actually I look at it--I mean, you are 
getting at the competition piece, and I understand.
    The Chairman. I am.
    Admiral Mullen. But as I look--and let me shift quickly--F-
18Es, you get rate and you get savings by production levels. 
That is how you create it.
    The Chairman. Do we have a fixed cost on this, or will 
they, being a sole-source engine, be able to raise their prices 
10 years out?
    Admiral Mullen. I actually think that with the kind of 
production line we are talking about, they will come down.
    The Chairman. We hope.
    Admiral Mullen. Sir.
    The Chairman. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. And thank you both 
for your testimony and your very thorough responses to our many 
diverse questions.
    I would like to come back again to the issue of sexual 
assault in the military. It is obviously one that is much in 
the news today, but really has been a long-standing issue, and 
I think, as Representative Turner mentioned, something that 
this committee has worked hard to deal with and find a way 
forward. But despite that, despite--and we have heard testimony 
from the various services as to all their efforts, but despite 
that, in 2010, there were 3,230 reported sexual assaults in the 
military. But by the Pentagon's own estimate, as few as 10 
percent of sexual assaults were reported. And the VA 
[Department of Veterans Affairs] estimates that one in three 
women veterans report experiencing some form of military sexual 
trauma.
    I can remember several years ago meeting with some people 
active in the VA in the State of Massachusetts and having a 
gentleman comment and say that that was one of their dominant 
issues that they had to deal with.
    The fiscal year 2011 Defense Authorization Act required 
that the Department look into the feasibility of providing a 
military lawyer to all victims of sexual assault. While this is 
a good first step, I was disappointed that provisions which 
guarantee all victims the right to legal counsel and protect 
the confidentiality of conversations between victims and victim 
advocates were not included in the final version of the 2011 
NDAA, though they were in the House version.
    We would be shocked if conversations between their client 
or advocate were not privileged in the civilian world, and 
similar rights must be afforded to service members who may be 
the victim of a crime. Why would the Department resist such a 
commonsense measure? And I ask this of Secretary Gates.
    Secretary Gates. I hadn't realized the Department had 
resisted it, and I must say, along with Mr. Turner's comments, 
these things sound to me like reasonable actions. And so I will 
take out of this hearing the charge to look into whether--why--
if we opposed it, why we opposed it, and why we should not go 
forward on our own, even without legislation.
    Ms. Tsongas. And I would appreciate, once you do that, of 
getting back to me in some form so that I and others who felt 
this was very important.
    I mean, one of the things we have found is that despite all 
the good efforts on the part of the services, that the follow-
up procedures, legally, do not support--undermine all of the 
efforts you have made around sort of preventing this in the 
first place, providing access to medical care. But if the 
follow-up legal processes do not sufficiently protect a victim, 
make them feel comfortable in coming forward, that it 
undermines all the good work you have done. They become suspect 
of the entire process, feel very much at risk. And this was one 
very commonsense way, going forward in a legal process alone, 
that we felt we could better protect victims as they try to 
assert their rights.
    Secretary Gates. This is one of the reasons why we have 
invested, as I mentioned earlier, over the last couple of years 
almost $2 million in training our prosecutors. We found, when I 
started looking into this several years ago, that the 
defendants hire lawyers who are specialized in this area, and 
our prosecutors tended to be--not have that specialty. And it 
is complex law, and it is difficult to prosecute successfully, 
particularly if you don't have the right training.
    And so that is one of the reasons we have undertaken that. 
And, as I say, we have expanded the Victim Advocate Program 
dramatically from about 300 to 3,000 around the world over the 
last few years in every base and installation. And I will press 
on the question of why we cannot assure confidentiality.
    Ms. Tsongas. And the other issue we have learned, too, is 
as all the services have dealt with this, each has done it in 
its own way reflective of its culture and different processes. 
That becomes very difficult to oversee as a Member of Congress. 
So in the defense authorization bill we ask for a comprehensive 
approach across all of the services, and I know that the 
Defense Department is working on that, and we look forward to 
what you come up with.
    So thank you both.
    The Chairman. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    First of all, thank you so much for the great job that both 
of you have done on behalf of our country.
    Let me first thank you for standing firm on the issue about 
the second engine for the F-35. I just think that we have got 
to make some tough decisions with limited resources, and that 
is certainly one of them that I think is wasteful that I 
certainly support you on.
    Also, in your position on the Combined Forces Command, 
Joint Forces Command, I think that its time has gone, and I 
certainly support you in that effort.
    But in terms of looking at the--I am concerned about still 
the top-heavy nature of the Department of Defense. And I noted 
that right now I think we have 268 ships, if that is the proper 
number. I believe it is. We have 253 admirals right now. That 
is almost one admiral per ship, and I think that the Navy is 
authorized to go to 283 admirals.
    And so can you tell me, give me some more visibility as to 
what could be done to try and streamline the military?
    Secretary Gates. One of the things that we have done as 
part of the efficiencies efforts is we have eliminated--out of 
900 flag-rank officers in the military, we will eliminate 100 
general officer positions over the next couple of years, and 
that includes admirals. And we also will be eliminating 
somewhere over 200 senior civilian executive positions. So I 
was asked earlier about the $11 billion for rebaselining OSD 
and the defense agencies and so on. That is where a lot of 
those positions are coming from.
    But we are also downgrading positions. We are not only 
eliminating positions, we are downgrading a number. For 
example, the component commanders in Europe will be downgraded 
from four stars to three stars, except for the Navy because 
there is a NATO connection on that side, so that will take 
longer.
    But we are trying to come at it both from the standpoint of 
is the level of flag-rank officer for the job right, given 
passage of history, and can we get rid of these positions? And 
we have done so on both civilian and the uniform side.
    Mr. Coffman. Thank you.
    Admiral Mullen. Well, thank you.
    If I could just briefly, and this is inside baseball, but I 
think it is one of the things I told the Secretary when we 
started to review this. You know, when budgets get tight, 
people start taking shots at how many admirals and generals 
there are. That is historic.
    What the Secretary led was a very thorough review--and 
actually the services did this--a very thorough review of need, 
what level for what job. And that will continue to go on.
    There is also, at least over the course of the last 15 
years for me, all of which I have been an admiral--far beyond 
anything I ever expected, believe me--there is also just a 
growing complexity that requires some level of senior civilian 
and uniformed leadership in the world that we are living in.
    So I am all for the reductions that make sense, but too 
often it is also a very easy target. And I just would like--as 
we have tried to be careful about it.
    Mr. Coffman. Well, thank you. It is an easy target, and I 
certainly think it is one we are willing to take.
    Let me talk about what is the Department of Defense doing 
in terms of reexamining our foreign basing commitments or our 
forward presence in terms of whether or not it is necessary?
    And let me refer, right now we have 28,500 U.S. personnel, 
I believe, on the Korean Peninsula in South Korea. It seems 
that when the North Koreans get upset, it is when we do the 
major joint military exercises. And when we look at our allies 
across the globe, can't we better demonstrate our support for 
our commitments with them by doing periodic joint military 
exercises? For instance, four brigade combat teams in Europe at 
this point in time, is that really necessary?
    So I am wondering if there has been an ongoing analysis to 
determine the cost-effectiveness of redeploying those forces 
back to the United States.
    Secretary Gates. We have spent a lot of time on this. We 
have just completed a global posture review examining our 
positioning in Europe, our position in the Pacific and also in 
the Middle East. It is now being discussed in the interagency 
because obviously there are political implications for any 
changes.
    But I would tell you that we have examined this very 
closely, and we will probably make some adjustments. I think I 
mentioned in a speech that our force structure, as well as our 
rank structure in Europe, is still a legacy from the Cold War.
    But that said, I am a firm believer that our forward 
posture in Europe, in Asia, is fundamental to our alliance 
relationships. It provides them with the assurance that, in 
fact, we will be there, and we will support them, and I think 
dramatic changes in our overseas posture would be very 
destabilizing to a lot of these relationships.
    And I think that one of the reasons that, for example, 
South Korea and Japan have not tried to develop nuclear weapons 
of their own is because of their confidence that our presence 
in their country provides a trip wire and a guarantee that if 
they are attacked, the United States will support them.
    The Chairman. Thank you.
    Ms. Pingree.
    Ms. Pingree. Thank you, Mr. Chairman.
    Thank you for your testimony today and for your service. I 
appreciate it. And a couple of things, I also want to tell you 
I appreciate your stand on the second engine, and also was glad 
to hear your explanation and your thoughtful remarks about the 
continuing resolution. Coming from the State of Maine where 
people pay a lot of attention to the construction of DDGs, we 
are very interested in what is going to happen there, so I 
appreciate your bringing all of our attention to the importance 
of the challenges of a continuing resolution.
    And I also want to thank you for your remarks to 
Representative Tsongas. I, too, am very concerned about some of 
the issues around sexual harassment and am concerned that we 
haven't moved far enough. So I am glad you have taken her 
charge and think particularly, now that we have increased 
dependence on women in the military, we have to be very 
respectful of the issues that they are raising and the fact 
that it hasn't changed sufficiently to make women comfortable 
at serving their country.
    But my question is somewhat different. You brought this up 
earlier, and I want to talk about TRICARE. As you know and you 
stated, the U.S. Family Health Care Plan designed by Congress 
in 1996 provides the full TRICARE Prime benefit for military 
beneficiaries in 16 States and D.C. for over 115,000 
beneficiaries. Beneficiaries are highly satisfied with this 
option.
    I come from Maine, as I said. In Maine it is administered 
by Martin's Point Health Care, and they have a customer 
satisfaction rating of 93 percent. I have visited their 
facility. They stress preventive care. It is exactly the model 
that we want for health care in this country.
    As you have already mentioned, the President's budget 
request has a huge proposed change that would preclude 
enrollment in U.S. Family Health Plan for beneficiaries who 
reach 65 years of age, and if we enact that, it would 
immediately force over 3,000 military beneficiaries to 
disenroll from the plan they have chosen.
    First, I think this recommendation contradicts President 
Obama's position regarding health care reform, that you should 
be able to keep the plan you have if you are happy with it. But 
perhaps a greater concern, you mentioned a cost savings. This 
proposal would have a cost saving for DOD, but it really just 
shifts the costs to the Department of Health and Human 
Services. So I don't see how overall we are anticipating a cost 
savings as a whole, and I think it is going to be very 
detrimental to the beneficiaries.
    So can you address my concerns on this?
    Secretary Hale. Let me respond. First, there would be some 
net savings of government because we are paying these hospitals 
at significantly higher than Medicare rates. And part of the 
goal of this overall effort is that we treat all the hospitals 
similarly in terms of the rate paying.
    I also want to clarify, yes, we would--as people reached 
age 65, they would need to join TRICARE For Life. They could 
stay at the hospital where they were being treated. They 
wouldn't be required to leave that; they could use that as 
their primary provider. But they would need to do what every 
other retiree does in the Department of Defense when they reach 
age 65, and that is join the TRICARE For Life program.
    So we are trying to treat everybody the same. Yes, there 
would be savings, modest, to the government. And you are right, 
there are some costs shifted to Medicare. But there is a net 
savings because we would now be paying Medicare rates, and we 
are paying much higher.
    I also want to work with the hospitals involved. We are not 
looking to reduce the quality of care. We are phasing this in 
very slowly. It would be everybody in the program now is 
grandfathered, grandmothered. It is only as you come into the 
programs, so there would be very gradual change, and our goal 
is to be sure these hospitals, that their care is not harmed.
    Ms. Pingree. So just to follow up, it is my understanding 
that Public Law 104-201, section 726(b), which I am sure you 
are well aware of, mandates that government cannot pay more for 
the care of U.S. Family Health Care Plan enrollees than it 
would if a beneficiary were receiving care from other 
government programs.
    So it seems to me that we should already be paying 
equivalent of what Medicare costs are. And, again, I would just 
stress, based on observing my own TRICARE program--and I don't 
have any particular stake in it--but having been very involved 
in the health care debate, knowing how important preventative 
care is, knowing that there is very high customer satisfaction 
with that, but also it is a different model of care, I am just 
greatly concerned with shifting people out of that model if it 
doesn't really result in cost savings and if it is only a cost 
shift.
    I mean, for us, I know you have to look at your budget, but 
we have to look at the overall costs here. And if it is just 
going over to Medicare, and it is not a significant savings, 
and it goes back to an old model of care, not a new 
preventative model of care, I don't think we have improved care 
for these families.
    Secretary Hale. Well, we need to get with you. I am not 
familiar with the details of the provisions. I do know that 
there are some requirements we are not meeting in the sole 
community hospitals with regard to Medicare rates. And that may 
be that we are also proposing to move toward that, toward 
Medicare rates. So we need to get back to you on the details.
    [The information referred to was not available at the time 
of printing.]
    Secretary Hale. There would be some modest net savings to 
the government. We work carefully with OMB [Office of 
Management and Budget], and they fully support this proposal in 
terms of shifting the funds.
    Ms. Pingree. Thank you. I would be happy to follow up with 
you on that, so thanks.
    The Chairman. Thank you.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Admiral, Mr. Secretary, sorry that I missed the last hour 
of testimony. I had to vote in markup.
    First question is this. Mr. Secretary, Mrs. Davis, my 
colleague from San Diego, when you were answering her 
questions, you talked about the defense budget. You talked 
about the total layouts and how this is the lowest point since 
the 1990s, since before World War II, where we are at the low 
part where we are at now, where there is so little being spent 
on defense.
    And I would argue and ask your opinion of this: If you 
don't give us a top line, if you don't ask for what it would 
cost to erase all risk, literally, or as much risk as possible, 
then we have no baseline to cut defense from or to add to 
really, because the numbers that we are using are limbo numbers 
really. Because if you were to fully fund defense--this is my 
question. If you were to fully fund defense and take away 100 
percent as best as you could, 100 percent of risk, using your 
own threat assessment tools and analysis, what would that 
funding be? What would you ask for?
    Secretary Gates. I have only half jokingly said in meetings 
in the Department that if we had a trillion dollar budget, I 
would still have unfunded requirements.
    Mr. Hunter. Yes, that is right.
    Secretary Gates. The services would still be able to come 
up with a list of things that they really need.
    I think that the budget that we have provided at $553 
billion for fiscal year 2012 mitigates risk to the extent that 
I think is reasonably possible, and I think that we have--we 
are investing in new capabilities. The $70 billion that the 
services are going to be able to invest from their savings in 
new capabilities or in added numbers, I think, help mitigate 
that risk.
    You can never reach a point--just as there is no such thing 
as perfect security, there is no such thing as eliminating 
risk.
    Mr. Hunter. Mr. Secretary, if I may, I am going to run out 
of time, and I have one more totally separate question. If you 
got to that highest point that you could where you start 
getting diminished rate of return, what would that number be, 
roughly?
    Secretary Gates. I think that we are at a point with the 
553- where we can do that.
    Mr. Hunter. Okay. So fully funding defense in every 
requirement is at 553-?
    Secretary Gates. We will never fund every request----
    Mr. Hunter. But if you did, sir, what I am asking is what 
that number might be.
    Secretary Gates. I have no idea how much it would be.
    Mr. Hunter. You haven't thought about what it would cost to 
really satisfy the requirements of all the different services?
    Secretary Gates. Nobody lives in that world.
    Mr. Hunter. No. But what you are supposed to do is tell us 
how we get to zero threat, and Congress then decides what to 
fund.
    Secretary Gates. And I am telling you, you are never going 
to get to zero threat.
    Mr. Hunter. Well, we could try.
    Secretary Gates. You could spend $2 trillion, and you will 
never get to zero threat.
    Mr. Hunter. But that is what we would like to hear from 
you, Mr. Secretary, is that if it cost $2 trillion, and we 
could cut that by 75 percent, and here we are at the 550-.
    All right. On a totally separate note, let us talk about 
Iraq for a minute. If the status of forces agreement is not 
changed, and/or the Iraqis don't ask for our help and ask us to 
stay, what is our plan for 2012? At the end of this year, what 
is going to happen?
    Secretary Gates. We will have all of our forces out of 
Iraq. We will have an Office of Security Cooperation for Iraq 
that will have probably on the order of 150 to 160 Department 
of Defense employees and several hundred contractors who are 
working FMS [Foreign Military Sales] cases.
    Mr. Hunter. Do you think that that represents the correct 
approach for this country after the blood and treasure that we 
have spent in Iraq, my own personal time of two tours in Iraq? 
There is going to be fewer people there than, that 150, than 
there are in Egypt right now, somewhere around 6-, 700 of those 
same types of folks in Egypt.
    How can we maintain all of these gains that we have made 
through so much effort if we only have 150 people, and we don't 
have any military there whatsoever? We would have more military 
in Western European countries at that point than we have in 
Iraq, one of the most central states, as everybody knows, in 
the Middle East.
    Secretary Gates. Well, I think that there is certainly, on 
our part, an interest in having an additional presence, and the 
truth of the matter is the Iraqis are going to have some 
problems that they are going to have to deal with if we are not 
there in some numbers. They will not be able to do the kind of 
job in intelligence fusion, they won't be able to protect their 
own airspace, they will not--they will have problems with 
logistics and maintenance.
    But it is their country, it is a sovereign country. This is 
the agreement that was signed by President Bush and the Iraqi 
Government, and we will abide by the agreement unless the 
Iraqis ask us to have additional people there.
    The Chairman. Thank you.
    Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman, Mr. Secretary and 
Admiral Mullen. Thank you so very much for your forthright and 
very compelling arguments.
    First I want to compliment you on going green. The Navy is 
doing extraordinary things, as are the other forces, and it is 
very, very important for your energy programs. I hope you 
continue that. I encourage you to do so, and many of us around 
here will do everything we can around here to support that 
effort.
    My question, though, goes to the Afghanistan war and 
Pakistan, and the question is this: Does our war in Afghanistan 
destabilize Pakistan; and, if so, what should we be doing about 
that problem in Pakistan?
    Secretary Gates. I don't believe that the war in 
Afghanistan is destabilizing to Pakistan. I think that what is 
destabilizing to Pakistan, among other things, is a group of 
terrorist--several terrorist organizations in the western part, 
northwestern part of Pakistan that are intent on destabilizing 
Pakistan and overthrowing its government. And I think our 
efforts, combined with the Pakistani efforts on both sides of 
the border, in fact, help reduce that terrorist risk to the 
Pakistanis.
    I think that extreme economic problems are a huge factor in 
Pakistan. So I don't think our presence in Afghanistan is 
destabilizing. In fact, I think it helps the Pakistanis long 
term.
    Mr. Garamendi. I will let it go at that. I am certainly not 
going to place my knowledge in intelligence ahead of yours, but 
there seems to be considerable others who would question that 
conclusion.
    Admiral.
    Admiral Mullen. Sir, I would say this is not a very stable 
region. I mean, that is part of the problem we have. Al Qaeda 
lives there, leadership lives there. They are still trying to 
kill as many Americans and Western citizens as they can.
    There are multiple terrorist organizations--I call it the 
epicenter of terrorism in the world--that are now working much 
more closely together than they have historically.
    So from my perspective, I try to talk about this as a 
region as opposed to one country or another. They are very much 
integrated in ways that sometimes they don't even like, but 
clearly they are.
    And so I think we have to have, and we seek, you know, a 
strategic partnership with both these countries, really the 
region, to look at long-term stability there. That is, from my 
perspective, whether we are at war at the level we are at right 
now or in the future when we have far fewer troops in the area, 
can we support stability in a way that doesn't endanger us in 
the long run, in addition to the citizens of those two 
countries?
    Mr. Garamendi. I thank you. I don't want to engage in a 
debate with you, so I will let it go at that and thank you for 
that information.
    My final question has to do with missile defense, which is 
significantly augmented in the budget. Why?
    Secretary Gates. Part of the half-billion dollar increase 
is to implement the phased adaptive array missile defense that 
we have agreed to in Europe; but also, frankly, to increase our 
ability to defend our ships and our troops against theater-
level threats, missile threats.
    Hezbollah alone has 40,000 rockets and missiles at this 
point, including anti-ship cruise missiles that have a range of 
65 miles. So we are putting more money into Aegis-capable 
ships. We will have 41 of these by the end of 2016, 28 by the 
end of 2012. They defend our ships. They defend, have the 
potential to defend, our ground troops. We are developing 
additional generations of the Standard Missile-3 that have 
enhanced capabilities to deal with Iranian, North Korean and 
other kinds of missiles. And we are making baseline--continuing 
to make baseline investments in the Ground-Based Interceptor 
program, which protects the continental United States.
    So I think all of these are contributing to our own 
security, but also help protect our allies as well.
    Mr. Garamendi. Thank you.
    The Chairman. Thank you.
    Mr. Rigell.
    Mr. Rigell. Thank you, Mr. Chairman.
    Good afternoon, Secretary Gates, Secretary Hale and Admiral 
Mullen. In your chain of command, many, many levels down is my 
son. And I just want you to know on behalf of the Second 
District of Virginia, if it is, in fact, your last testimony 
before the House Armed Services Committee, that we are just 
really deeply, deeply grateful for your service. I know you 
have sacrificed a lot, and your families have, to allow you to 
serve in the way you have. I know that you are doing everything 
you can to accomplish the mission and to protect our young 
people. I thank you for that.
    I come from a private-sector background, and I have learned 
in life that communication is extraordinarily difficult and it 
is absolutely essential for an organization to succeed. And I 
don't speak for the committee, but just for myself. It sure 
seems to me that communication between the DOD and HASC is 
lacking, it is poor. I regret that I have to rate it that way.
    It is acute in our own district, in the Second District of 
Virginia, with respect to the disestablishment of JFCOM [Joint 
Forces Command]. Even today I have yet to receive the detailed 
analysis, the supporting documents, that would help me, 
representing the Second District, to properly understand and 
respond to the disestablishment of JFCOM, and that is 
disappointing to me. And I trust that we will move forward both 
on the House side and on the Pentagon side to improve, sharply, 
communication.
    One area that I would like to shift to here is TRICARE, and 
it is widely understood when someone enlists in the military 
that health care is for life, it is free. I have asked many 
people, I served in the Marine Corps Reserve myself, and just 
it is widely understood.
    And so as tempting as it is to look at that area as an area 
for cost savings, I truly believe, and I don't use these words 
lightly, that it is a breach of trust to change the deal 
because maybe we don't like the deal, or the government doesn't 
like the deal.
    Mr. Chairman, Admiral Mullen, what initiative, if any, is 
being undertaken to ensure or make a more full disclosure to 
those who are considering a military career with respect to 
benefits that may be offered at their retirement?
    Admiral Mullen. Honestly, when young people come in the 
military, they are 20-something, 17, 18, 19 years old. And 
certainly while the material is available, and recruiters may 
use this as something in terms of, you know, a health care 
plan, and I have talked about it to our young people forever, I 
think that the military health care plan is the gold standard 
in the country, quite frankly.
    But it is not something, at least I have found in those on 
Active Duty, they have focused heavily on, more so recently 
than in the past. But it is not something they focus on when 
they are that young. I didn't, and many others haven't.
    Mr. Rigell. Admiral, with all due respect, my time is so 
short.
    Secretary Gates. There is a larger point, so let me respond 
to this. Congress actually settled this issue in 1995, that it 
wasn't free for life. They imposed fees, and they imposed a fee 
of $460 a year. So the issue of whether it was free or not was 
settled by Congress in 1995.
    Once you have acknowledged that there is going to be a fee, 
the notion that the fee would never change is certainly nowhere 
in the legislation.
    Mr. Rigell. Well, Mr. Secretary, my question was what 
initiative, if any, was undertaken to ensure a full disclosure 
of those who are entering the service? I believe in full 
disclosure; I know we all do. And I am submitting to you today 
that, in countless conversations with our veterans, that there 
is a disconnect between what is being told by the recruiter and 
what reality is. And I just respectfully, as one American to 
another, am asking that that be addressed within the commands. 
It is not an expensive initiative. It would just be to ensure 
better disclosure.
    You know, as we look--and I will close with this. As we 
look at the profound challenges that are facing our military 
that you have discussed today and the shortage of funds for 
ship repair, for shipbuilding, the reduction in end strength, 
troop levels, it is just stunning to me--and, I think, a 
misplaced priority--that we are still talking about sending a 
carrier to Mayport, which is a risk that is minimal and could 
be mitigated with far less funds than it takes to move that 
carrier to Mayport. And I would ask you to reconsider that, 
respectfully.
    Thank you.
    The Chairman. Mrs. Hanabusa.
    Mrs. Hanabusa. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, and thank you, Admiral, for being 
here.
    I have a basic question regarding the budget. I read, I 
thought I read it correctly in the budget documents from the 
President, that the total amount of outlay was about $700 
billion. And I do know that 553- is the base budget, and Mr. 
Secretary has said that. And the Overseas Contingency Operation 
budget of about 117-, plus or minus, I think, is not included 
in the base, if I am reading that correctly. But I am still 
short about $30 billion. So do you know where that $30 billion 
is?
    Secretary Hale. I need to get with you and see where the 
numbers are. There are various ways of adding up the budgets. 
The figures we are discussing here are 051. You could be 
including the National Nuclear Security Administration figures 
in there, which is something called function 050.
    I don't know if we want to take a lot of time here, but I 
would be glad to get with you, and we will sort out the numbers 
for you.
    Mrs. Hanabusa. Please do. But the 553- and the 117- is 
correct, though. We are not just really talking about 553----
    Secretary Hale. Yes. That is the DOD portion of the budget. 
But as I say, there are various ways of adding this up.
    Mrs. Hanabusa. Thank you very much.
    Mr. Secretary, Congresswoman Bordallo has left, but I am 
also very curious about the position with Okinawa. And I have 
read what was given to us beginning on page 15 and continuing 
on to page 16.
    There seems to not be a firm statement about what Japan's 
position is, and I think one of the things that is pointed out 
is that the $472 million for Guam was not included in, I guess, 
the Japanese budget.
    So how critical is their contribution to what happens? And 
I kind of would like to know, as best as I can, what is the 
bottom line? Are they going to move from Okinawa? Are they not 
going to move? It looks like a reduction of about 10,000 troops 
from Okinawa. So what do we plan to do?
    Secretary Gates. First of all, the Japanese actually have 
fulfilled all their commitments to date. They have given us, I 
think, a little over $700 million for infrastructure. When I 
was there, they told me they were putting together a program 
that will include something on the same order of further 
infrastructure investments.
    And as I mentioned earlier, we really can't go forward on 
Guam. In fact, the Congress has withheld money for going 
forward on Guam until we have greater clarity on what happens 
on Okinawa.
    My hope is, based on my conversations in Japan, that we 
will have some resolution of this by later this spring or early 
this summer, and then we will be able to come to you with our 
plans. But absent--absent resolution of the Futenma replacement 
facility issue, our troops aren't coming out of Okinawa, land 
is not being returned to the Okinawans, and we have to sort of 
start all over again.
    But I do believe we will find some positive resolution to 
the Futenma issue.
    Mrs. Hanabusa. So when you say the Futenma issue and the 
resolution of where the troops are going to go, are you talking 
about within Okinawa itself or some variation of Okinawa and 
Guam?
    Secretary Gates. On Okinawa itself.
    Mrs. Hanabusa. On Okinawa itself?
    And finally, this whole concept of end strength, I want to 
know whether that is some kind of a magical number into the 
future, to a time specific, or is that something that we are 
looking at given the information that we have today?
    Secretary Gates. It is basically looking at the information 
that we have today.
    And, as I have said, the end strength in 2015 and 2016 
will, at the end of the day, be determined by the conditions in 
the world and, above all, have we come out of Afghanistan, by 
and large, by the end of 2014. That would enable us to have a 
lower end strength.
    Now, as we have talked about in this hearing, the Marine 
Corps believes that it needs to come down about 15,000 because 
they think they have gotten too big and too heavy in terms of 
their equipment. So this is a proposal that actually is 
divorced from the budget and is more based on the Marine Corps' 
own view of their force structure and what they need to 
complete their mission going forward.
    Mrs. Hanabusa. And how about the other services? Do they 
share----
    Secretary Gates. The only other service affected at this 
point is the Army. And, again, depending on the circumstances, 
the Army leadership supports this proposal, but the Army 
leadership is also fully aware that they will have the 
opportunity to revisit this decision if conditions in the world 
change.
    Mrs. Hanabusa. Thank you.
    The Chairman. We have one, two, three, four, five Members 
that have been waiting patiently now for 3 hours, and we just 
got the first series of votes called, and I am concerned that 
they will go for 45 minutes or an hour. And I know, Mr. 
Secretary, you said that you had until 1:30. I appreciate that 
you have given us that time, but I think we only have time 
probably for one more.
    Mr. Gibson.
    Mr. Gibson. Thank you, Chairman, and I thank the 
distinguished panelists for their leadership and for being here 
today. And I also want to express my admiration for all the men 
and women that you lead and for their families on what they do 
on behalf of our freedom.
    I also would like to express my appreciation for the budget 
submission, not easy work, and I have some experience in it, 
and I know it has been challenging for the team, especially in 
relation to the last decade with regard to prioritization. I 
look forward to being supportive going forward.
    My concern has been touched on here today, but I would like 
to address it more directly, and it has to do with, generally, 
requirements and resources, but, more broadly, with the 
prefacing discussion of what kind of country we are, what 
interests we have, or what commitments we think are appropriate 
for a republic.
    You know, I think on this committee there would be wide 
agreement and beyond that we need to protect our cherished way 
of life, and that we need the world's best military to do that, 
but I think there is a wide variety of views and opinions as to 
precisely what that means. Some believe that we should embrace 
some kind of isolationism; others, perhaps, a near endless 
global commitment strategy.
    I reject the extremes of both sides. I personally think 
that we are overcommitted and that we ask too much of our 
military, but it is a debatable point. Which gets to my point. 
We have processes, NDP, the QDR, primarily for internal or D.C. 
consumption, when I think it really needs to be more of a 
national conversation.
    I know you both travel widely and you speak. I am curious 
to know, does this topic come up when you are with the American 
people, and what ideas that you have, if you agree, that this 
should be more of a national discussion going forward?
    Admiral Mullen. Well, I have traveled fairly extensively 
over the course of the last year, and I have found, and I worry 
about, the sort of growing disconnect between the American 
people and the military. And I don't mean that--I mean, they 
are enormously supportive of our men and women and their 
families. They know we are in two wars. They know we are 
sacrificing enormously as well.
    More and more, we come from 40 percent fewer places. I 
mean, we are 40 percent smaller than we were in 1989. We have 
BRACed [Base Realignment and Closure] out of many parts of the 
country. And so our day-to-day connections are significantly 
reduced from what they used to be. And it is the breadth and 
the depth of understanding of who we are and what we are doing, 
the number of deployments, sacrifices of the family, the 
changes that have occurred over the course of the last decade.
    So it is not going to happen overnight, but it is a long-
term concern that I have. And particularly when you overlay 
that with the enormous fiscal challenges that the country has 
right now, it is one of the reasons I have talked about--I 
actually do think the debt is a huge issue for national 
security, because we are going to be affected by that. You can 
see it in this budget. It is going to continue to happen.
    So that is probably the worry, and having a conversation 
with America about those challenges, and particularly 
individuals who serve, then go on to return to communities 
throughout the country, the veterans issues. I mean, we see an 
increasing homeless population in our veterans, increasing 
number of female homeless veterans, for example. How do they 
return to--you pick the area. They are enormously capable 
people. They are wired to serve in the future. They will make a 
big difference. They are 20-something. But how do we invest 
just a little bit in them so that, taking advantage of the GI 
bill, they will then take off and make a huge difference in the 
future? And I think they will. That connection is something 
that I think is really important.
    Secretary Gates. But at the end of the day, Mr. Gibson, 
from our perspective, the dialogue, the conversation that you 
are describing is a dialogue that needs to take place between 
the executive branch and the legislative branch. You represent 
the American people. You have your finger on the pulse of the 
people in your district better than any of us ever could. And 
so, as was intended by the Founders, we basically rely on you 
as the surrogates for the American people in terms of that 
dialogue.
    Mr. Gibson. I appreciate the comments, and I do believe 
that it is an area that we are going to need to address. And I 
look forward to working with the DOD and also the chairman and 
the committee moving forward.
    And I yield back.
    The Chairman. Thank you very much.
    Mr. Secretary, Admiral, thank you again for being here, for 
your service. And this committee stands adjourned.
    [Whereupon, at 1:12 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                           February 16, 2011

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 16, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T4862.001
    
    [GRAPHIC] [TIFF OMITTED] T4862.002
    
    [GRAPHIC] [TIFF OMITTED] T4862.003
    
    [GRAPHIC] [TIFF OMITTED] T4862.004
    
    [GRAPHIC] [TIFF OMITTED] T4862.005
    
    [GRAPHIC] [TIFF OMITTED] T4862.006
    
    [GRAPHIC] [TIFF OMITTED] T4862.007
    
    [GRAPHIC] [TIFF OMITTED] T4862.008
    
    [GRAPHIC] [TIFF OMITTED] T4862.009
    
    [GRAPHIC] [TIFF OMITTED] T4862.010
    
    [GRAPHIC] [TIFF OMITTED] T4862.011
    
    [GRAPHIC] [TIFF OMITTED] T4862.012
    
    [GRAPHIC] [TIFF OMITTED] T4862.013
    
    [GRAPHIC] [TIFF OMITTED] T4862.014
    
    .eps<greek-l>this 2-line scan no longer needed[GRAPHIC] [TIFF OMITTED] T4862.015
    
     deg.[GRAPHIC] [TIFF OMITTED] T4862.016
    
    [GRAPHIC] [TIFF OMITTED] T4862.017
    
    [GRAPHIC] [TIFF OMITTED] T4862.018
    
    [GRAPHIC] [TIFF OMITTED] T4862.019
    
    [GRAPHIC] [TIFF OMITTED] T4862.020
    
    [GRAPHIC] [TIFF OMITTED] T4862.021
    
    [GRAPHIC] [TIFF OMITTED] T4862.022
    
    [GRAPHIC] [TIFF OMITTED] T4862.023
    
    [GRAPHIC] [TIFF OMITTED] T4862.024
    
    [GRAPHIC] [TIFF OMITTED] T4862.025
    
    [GRAPHIC] [TIFF OMITTED] T4862.026
    
    [GRAPHIC] [TIFF OMITTED] T4862.027
    
    [GRAPHIC] [TIFF OMITTED] T4862.028
    
    [GRAPHIC] [TIFF OMITTED] T4862.029
    
    [GRAPHIC] [TIFF OMITTED] T4862.030
    
    [GRAPHIC] [TIFF OMITTED] T4862.031
    
    [GRAPHIC] [TIFF OMITTED] T4862.032
    
    [GRAPHIC] [TIFF OMITTED] T4862.033
    
    [GRAPHIC] [TIFF OMITTED] T4862.034
    
    [GRAPHIC] [TIFF OMITTED] T4862.035
    
    [GRAPHIC] [TIFF OMITTED] T4862.036
    
    [GRAPHIC] [TIFF OMITTED] T4862.037
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 16, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCKEON

    The Chairman. On January 6th you stated that this budget request, 
``Represents, in my view, the minimum level of defense spending that is 
necessary given the complex and unpredictable array of security 
challenges the United States faces around the globe.'' You went on to 
explain why further cuts to force structure would be calamitous.
    However, last year you indicated that given topline real growth of 
approximately 1%, force structure and modernization accounts need to 
grow by 2-3% beyond 2015 to prevent cuts to force structure. The budget 
request before us does not achieve that level of topline growth.
    <bullet>  How will you maintain the level of modernization you 
believe is necessary to protect our national security?
    <bullet>  Does this budget request guarantee cuts to force 
structure beyond 2015, as you predicted might happen?
    Secretary Gates. [The information was not available at the time of 
printing.]
    The Chairman. What was the 2016 end strength for the Army and the 
Marine Corps presumed by the QDR and during development of the national 
military strategy?
    <bullet>  Going forward, what specific metrics will the Department 
use to evaluate the decision to reduce Army and Marine Corps end 
strength?
    <bullet>  How will this reduction in end strength affect the 
objective of 1:3 dwell time for the active force?
    Secretary Gates. [The information was not available at the time of 
printing.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SMITH
    Mr. Smith. The US Family Health Plan designed by Congress in 1996 
provides the full TRICARE Prime benefit for military beneficiaries in 
16 states and the District of Columbia for over 115 thousand 
beneficiaries. Beneficiaries are highly satisfied with this health care 
option. In fact, the Committee understands that in 2010 over 91% of US 
Family Health Plan beneficiaries were highly satisfied with the care 
they received, making it the highest rated health care plan in the 
military health system.
    <bullet>  The FY 12 President's Budget Request includes a proposed 
legislative provision that future enrollees in US Family Health Plan 
would not remain in the plan upon reaching age 65. Do you realize that 
this proposal would eliminate access for our beneficiaries who are 
elderly and in the most need of health care from the highest rated 
health care plan in the military?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Smith. Public Law 104-201 Sec 726(b)) mandates the Government 
cannot pay more for the care of a US Family Health Plan enrollee than 
it would if that beneficiary were receiving care from other government 
programs. Is DOD in compliance with that provision? If you are not in 
compliance with the law or disagree with the above, please explain. Is 
the proposal simply to shift cost to Medicare?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Smith. The US Family Health Plan provides prevention and 
wellness programs as well as effective disease and care management 
programs designed to care for beneficiaries' health care needs over 
their lifespan. Given the longitudinal approach of the program in 
managing the health care needs of the US Family Health Plan 
beneficiaries, and the Department's interest in the medical home model, 
why would you not consider expanding such innovative techniques in 
health care delivery?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Smith. The proposed legislation, if enacted, would force future 
enrollees to disenroll from this effective and well managed program 
upon reaching age 65. The remaining beneficiaries would be at risk 
because the ability to sustain disease management and prevention 
programs would be compromised, effectively removing the option of 
continued participation in this plan. Is this consistent with the DOD's 
stated priorities of population health, improved health management and 
continuity of care?
    Secretary Gates. [The information was not available at the time of 
printing.]
                                 ______
                                 
       QUESTIONS SUBMITTED BY MR. SMITH ON BEHALF OF MS. GIFFORDS
    Mr. Smith. DOD Operational Energy Strategy
    <bullet>  As a follow-up to the 29 Sept 2010 letter (attached) 
issued by the Committee (to Sec Gates) last year, how is the Department 
achieving efficiencies in Operational Energy, saving lives and taxpayer 
dollars by saving fuel?
    <bullet>  In his 1 Nov 2010 response (attached) Secretary Gates 
stated he would be releasing the Department of Defense's Operational 
Energy Strategy. What is the status of this report and anticipated date 
of release?
    Secretary Gates and Admiral Mullen. [The information was not 
available at the time of printing.]
    Mr. Smith. Operational Renewable Electricity
    <bullet>  Following the impressive success of the USMC's 
Afghanistan Experimental Forward Operating Base (ExFOB), what steps is 
the Department taking to increase the use of renewable energy sources 
in the battlefield?
    <bullet>  How much does the ExFOB cost?
    <bullet>  What advantage do portable renewable energy sources add 
to mission effectiveness?
    <bullet>  Is the rest of the expeditionary force doing something 
similar?
    <bullet>  What are the barriers to successful wide-spread 
deployment of ExFOB-like technologies?
    <bullet>  What is the strategy, cost, and timeline of such a 
deployment?
    Secretary Gates and Admiral Mullen. [The information was not 
available at the time of printing.]
    Mr. Smith. Renewable Electricity Goals
    <bullet>  The National Defense Authorization Act (NDAA) of 2007 
directed DOD to produce or procure 25% of all electricity consumed by 
the Department from renewable energy sources by 2025. What is the 
Department's strategy for achieving this goal? What impediments does 
the Department foresee to achieving this goal?
    Secretary Gates and Admiral Mullen. [The information was not 
available at the time of printing.]
    Mr. Smith. Energy Research and Development
    <bullet>  What is the Department of Defense's energy investment 
strategy for R&D? Specifically:
        o  implementing high efficiency drive technologies, such as 
        hybrid drive, into tactical vehicles;
        o  increasing the energy efficiency of facilities in garrison 
        and in theater; and
        o  developing alternative fuels.
    <bullet>  How does the Department coordinate R&D efforts between 
each of the Services, DOD agencies such as DARPA, and independent 
Service research labs such as the Office of Naval Research and the Air 
Force Research Lab? And, how do they coordinate investments with DOE to 
avoid duplication--particularly under the auspices of the DOD/DOE MOU?
    Secretary Gates and Admiral Mullen. [The information was not 
available at the time of printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. BARTLETT
    Mr. Bartlett. After your appearance before the committee, your 
public affairs office sent the following email on February 16, 
regarding the subject of the undated, unsigned, and unsolicited 
documents on the subject of the JSF alternate engine sent by your 
legislative affairs office to select Members of Congress on February 14 
and 15: ``The Department, through its office of Legislative Affairs, 
routinely provides papers to members of Congress and their staffs, to 
inform them of the Department's position on important issues. Because 
of the nature of those documents (fact sheets and information papers), 
they are not normally signed or dated. While the Secretary may not be 
aware of these routine communications, the documents themselves 
represent the Secretary's and Department's position. His, and our, 
opposition to the F-35 extra engine is well-known and a matter of 
record. These documents are not inconsistent with our previous public 
statements.''
    <bullet>  Please provide the committee a list of all unsolicited, 
undated and unsigned background or information papers provided by your 
Department to select members of Congress during 2010 and 2011. Please 
provide the subject matter, the approximate date, and the members' 
names, and to whom the information papers were sent.
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Bartlett. In your testimony, in responding to a question 
regarding the F-35 alternate engine, you made a statement that the F-18 
and F-22 engines come from a single source. Also, a Department of 
Defense (DoD) information paper provided to select members of Congress 
the day before the House of Representatives voted on an amendment to 
strike funding for the F-35 competitive engine stated: ``A single 
engine is not a new approach and does not create unacceptable levels of 
risk. The Department maintains two current tactical aircraft programs, 
the F-22 and the F/A-18/F, which both utilize a single engine 
provider.''
    The F-22 and F/A-18 are twin engine aircraft. The F-35 is a single 
engine aircraft. As you are aware, there are significant differences in 
design and operational requirements for engines intended to power 
single engine aircraft from those that are designed to power multi-
engine aircraft. We understand that engines designed to power single 
engine aircraft require component and software redundancies; increased 
component reliability; higher production quality standards; and larger 
air start envelope requirements.
    Also, as we understand it, only two U.S. military operational 
aircraft are single engine aircraft: the Air Force F-16 and the Marine 
Corps AV-8B. The F-16 was the first aircraft to use an alternate 
engine, beginning in the mid-80s and still does so today. According to 
DOD information, accident rates for the F-16 have trended from 14 
mishaps/100,000 flight hours in 1980 with the Pratt & Whitney engine, 
when the alternate engine program was first funded, to less than 2 
mishaps/100,000 flight hours in 2009 for both the Pratt & Whitney and 
GE engines. A review of DOD AV-8B accident data last year by the 
committee indicated an accident rate (FY 05-09) six times that of the 
other Navy fighter aircraft (F-18) and over 3 and \1/2\ times the rate 
of the F-16 (FY 04-08). The AV-8B will be replaced by the F-35B. It 
will not be operational until at least 2016. The Institutes for Defense 
Analysis estimated in 2007 that up to 95 percent of the U.S. fighter 
fleet could be composed of F-35 aircraft by 2035.
    No fighter aircraft engine has ever been required to do what the F-
35 engine is required to do--provide powered flight and also power a 
lift fan for the short takeoff and vertical landing F-35B. You have 
indicated that you have placed the F-35B on ``probation,'' requiring 
redesign of the F-35B unique engine components. The current estimate to 
complete development of the F135 primary engine has been extended 
several years and the estimated cost to complete the development 
program is 450 percent above the February 2008 estimated completion 
cost. Five months into fiscal year 2011, the fiscal year 2010 engine 
contract has yet to be signed. The F-35 primary engine has, as of the 
end of 2010, 680 total flight test hours and has 90 percent of its 
flight testing to go.
    <bullet>  What were the planned initial operational capability 
dates for the F-35A, B, and C when you testified before our committee 
last year? What were the planned initial operational capability dates 
for the F-35A, B, and C as of July 2010? What are the current planned 
initial operational capability dates for the F-35A, B, and C?
    <bullet>  Do you believe your testimony and the DOD information 
paper provide a balanced representation of the risks in programs costs 
as well as operational risks to DOD of dependence on a single engine 
source for the F-35 aircraft for up to 95 percent of the future U.S. 
fighter fleet?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Bartlett. In your testimony, in responding to a question 
regarding the F-35 F135 alternate engine, you made a point that the F-
35 primary engine is a derivative of the F-22 F119 engine.
    We understand the Systems Development and Demonstration (SDD) for 
the F-35 F135 engine was to have been completed in FY 08 and still has 
several years to go to complete development. We also understand SDD for 
the F135 primary engine is now 70 percent over the original 2001 
estimated cost, been slipped several years, and is 450 percent over the 
estimated cost to complete since the FY10-to complete estimate of 
February of 2008.
    <bullet>  When the F119/F135 engine entered Systems Development and 
Demonstration (SDD) were any of the ground or flight test requirements 
waived because the F135 ``is a derivative of the F-22 engine?''
    <bullet>  Dr. Carter directed an Integrated Manufacturing Readiness 
Review of the F135 contractor in 2009 because of concerns over 
escalating costs and parts production productivity. If the F135 is a 
derivative of the F119 why do you believe the review team discovered 
several of the major components for the F135 with manufacturing 
readiness levels of 3 and 4, when low rate initial production of the 
engine had begun in fiscal year 2007?
    <bullet>  If the F135 is a derivative of the F-22 engine, why do 
you believe the completion of testing has been delayed and costs have 
continued to increase for development?
    <bullet>  What was the planned development time period for the 
F135? How long has the F135 been in development and how many more years 
of development are required?
    <bullet>  What was the original estimate for the cost of F135 
development and what is the current FY12 -to-complete, development?
    <bullet>  Is the Department able to segment planned and actual 
development costs for the F135 and those solely associated with the 
lift fan and associated components? If so, please provide that 
information to the committee.
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Bartlett. In testimony before the Senate Armed Services 
Committee on February 17, 2011, you were quoted as stating: ``The Air 
Force version flew twice as many flight tests as had been originally 
planned.''
    My understanding from DOD sources is that the F-35A flew 171 
flights in 2010 versus a planned 112 flights, 53 percent more than 
planned, not 100 percent more than planned, as you are quoted as 
saying.
    <bullet>  Could you provide the committee the correct information 
on the issue of planned versus actual flight tests sorties flown by the 
F-35A test aircraft in 2010?
    <bullet>  Under the FY 2007 F-35 flight test schedule, when DOD 
requested funds to initiate F-35 production, how many flights should 
have been flown from the beginning of the F-35 test program through 
December 2010 and what were the actual number of flight tests flown 
(please show AA-1 separately)?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Bartlett. A Department of Defense (DoD) information paper 
provided to select members of Congress the day before the House of 
Representatives voted on an amendment to strike funding for the F-35 
competitive engine stated: ``. . . the F136 engine is already three to 
four behind in its development phase.''
    The last information provided to the committee, in April 2010, 
indicated the F136 engine was two to three months behind its originally 
planned development schedule, not three to four years.
    We understand the original acquisition strategy for the F-35 engine 
was to award two separate sole source engine contracts, four years 
apart, using a leader-follower acquisition strategy, the first contract 
being awarded to P&W for the F135 in 2001; the second contract being 
awarded to GE for the F136 in 2005, 46 months apart.
    The November 8, 2000 DOD F-35 acquisition strategy stated: ``The 
contract strategy for the JSF119 [now F135] propulsion system entails a 
single, sole source contract to P&W. P&W will complete propulsion 
system development in FY08.'' JSF Acquisition Strategy, 8 November 
2000. The acquisition strategy document also stated: ``The contract 
strategy for the alternate JSF F120 [now F136] propulsion system 
entails awarding a single, sole source contract . . . in FY 05 . . . '' 
JSF Acquisition Strategy, 8 November 2000. Finally the acquisition 
strategy stated: ``This competitive engine environment will ensure 
long-term industrial base support with two production lines and will 
keep JSF engine costs down and reliability up.''
    An April 12, 2010, response to question for the record, March 24, 
2010, Hearing before the Air and Land Forces and Seapower subcommittees 
of the House Committee on Armed Services stated: ``The original F135 
contract signed 26 October 2001 had an initial service release set for 
November 2007.'' That objective was met 24 months late: ``The current 
F135 program has achieved conventional takeoff and landing ISR the 1st 
quarter FY2010 [October-December 2009] and short takeoff and vertical 
landing ISR is planned for 4th quarter FY2010 . . . The F136 is 2-3 
months behind schedule to the original plan.''
    The current estimate to complete development of the F135 primary 
engine has been extended several years and the estimated cost to 
complete the development program is 450 percent above the February 2008 
estimated completion cost.
    Five months into fiscal year 2011, the fiscal year 2010 engine 
contract has yet to be signed.
    The F-35 primary engine has, as of the end of 2010, 680 total 
flight test hours and has 90 percent of its flight testing to go.
    What has been the level of funding obligated, including other 
government costs, for the F136 development from FY 07 to date, by 
fiscal year, and what was the level of funding determined by the F-35 
Joint Program Office as being required, including other government 
costs, by fiscal year, to maintain the F136 development schedule.
    <bullet>  Do you believe the DOD information paper provides a 
balanced representation of the F-35 acquisition strategy and F136 and 
F135 development schedules?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Bartlett. A Department of Defense (DoD) information paper 
provided to select members of Congress two days before the House of 
Representatives voted on an amendment to strike funding for the F-35 
competitive engine stated: ``A 2010 update of the 2007 cost benefit 
analysis concluded, through very optimistic assumptions, that the 
second engine is currently at the breakeven point in net present 
value.''
    In testimony before the Air and Land Forces and Seapower 
Subcommittees of the House Committee on Armed Services on March 24, 
2010, the Honorable Christine Fox, Director of the Cost Assessment and 
Program Evaluation Office [CAPE], Office of the Secretary of Defense, 
was asked by Representative Jim Marshall regarding her testimony that 
the DOD 2007 cost benefit analysis on the F-35 engine program used 
``optimistic assumptions'': ``So back in 2007, were you trying to prove 
a case or were you just trying to do a study?'' Ms. Fox responded: ``We 
were trying to do a study, sir.'' In addition, the 2007 DOD engine cost 
benefit analysis cites six sources that it indicates were 
methodologically consistent with the 2007 DOD study, including RAND, 
the Institute for Defense Analysis, The Analytical Services 
Corporation, and the Defense Systems Management College.
    The GAO has noted that key assumptions in the Pentagon's estimate 
of the $2.9 billion six year cost to complete the F136 competitive 
engine and prepare for competition were unnecessarily pessimistic based 
on historic experience with the original alternate engine program. 
``Those assumptions were (1) 4 years of noncompetitive procurements of 
both engines would be needed to allow the alternate engine contractor 
sufficient time to gain production experience and complete 
developmental qualification of the engine, and (2) the government would 
need to fund quality and reliability improvements for engine 
components. Past studies and historical data we examined indicate that 
it may take less than 4 years of noncompetitive procurements and that 
competition may obviate the need for the government to fund component 
improvement programs. If these conditions hold true for the alternate 
engine, the funding projection for the alternate engine could be lower 
than DOD's projection.''
    <bullet>  Do you believe the DOD information paper provides a 
balanced representation of the F-35 engine acquisition strategy and 
F136 and F135 development schedules?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Bartlett. In your testimony, in responding to a question 
regarding the F-35 alternate engine, you stated the F-35 alternate 
engine is ``two to three years behind [the primary engine].''
    The last information provided to the committee by DOD, in April 
2010, indicated the F136 engine was two-to-three months behind its 
originally planned development schedule, not ``two to three years 
behind.''
    We understand that the original acquisition strategy for the F-35 
engine was to award two separate sole source engine contracts, four 
years apart, using a leader-follower acquisition strategy, the first 
contract being awarded to P&W for the F135 in 2001; the second contract 
being awarded to GE for the F136 in 2005, 46 months apart.
    The November 8, 2000 DOD F-35 acquisition strategy stated: ``The 
contract strategy for the JSF119 [now F135] propulsion system entails a 
single, sole source contract to P&W. P&W will complete propulsion 
system development in FY08.'' JSF Acquisition Strategy, 8 November 
2000. The acquisition strategy document also stated: ``The contract 
strategy for the alternate JSF F120 [now F136] propulsion system 
entails awarding a single, sole source contract . . . in FY 05 . . .'' 
JSF Acquisition Strategy, 8 November 2000. Finally, the acquisition 
strategy stated: ``This competitive engine environment will ensure 
long-term industrial base support with two production lines and will 
keep JSF engine costs down and reliability up.''
    An April 12, 2010, response to question for the record, March 24, 
2010, Hearing before the Air and Land Forces and Seapower subcommittees 
of the House Committee on Armed Services stated: ``The original F135 
contract signed 26 October 2001 had an initial service release set for 
November 2007.'' That objective was met 24 months late: ``The current 
F135 program has achieved conventional takeoff and landing ISR the 1st 
quarter FY2010 [October-December 2009] and short takeoff and vertical 
landing ISR is planned for 4th quarter FY2010 . . . The F136 is 2-3 
months behind schedule to the original plan.''
    The current estimate to complete development of the F135 primary 
engine has been extended several years and the estimated cost to 
complete the development program is 450 percent above the February 2008 
estimated completion cost.
    Five months into fiscal year 2011, the fiscal year 2010 engine 
contract has yet to be signed.
    The F-35 primary engine has, as of the end of 2010, 680 total 
flight test hours and has 90 percent of its flight testing to go.
    What has been the level of funding obligated, including other 
government costs, for the F136 development from FY 07 to date, by 
fiscal year, and what was the level of funding determined by the F-35 
Joint Program Office as to be required, including other government 
costs, to maintain the F136 development schedule.
    <bullet>  Do you believe your testimony before the committee 
provided a balanced representation of the F-35 engine acquisition 
strategy and F136 and F135 development schedules?
    Admiral Mullen. [The information was not available at the time of 
printing.]
    Mr. Bartlett. In responding to the question on the F-35 alternate 
engine, you said ``there have been multiple airplanes that are single-
engine airplanes that are single source.''
    The F-22 and F/A-18 are twin engine aircraft. The F-35 is a single 
engine aircraft. We understand that only two U.S. military operational 
aircraft are single engine aircraft: the Air Force F-16 and the Marine 
Corps AV-8B. The F-16 was the first aircraft to use an alternate 
engine, beginning in the mid-80s and still does so today. DOD 
information indicates accident rates have trended from 14 mishaps/
100,000 flight hours in 1980 with the Pratt & Whitney engine, when the 
alternate engine program was first funded, to less than 2 mishaps/
100,000 flight hours in 2009 for both the Pratt & Whitney and GE 
engines. A review of the AV-8B DOD accident data last year indicated an 
accident rate (FY 05-09) six times that of the other Navy fighter 
aircraft (F-18) and over 3 and \1/2\ times the rate of the F-16 (FY 04-
08). The AV-8B will be replaced by the F-35B. The F-35 is a single 
engine aircraft. It will not be operational until at least 2016. The 
Institutes for Defense Analysis estimated in 2007 that up to 95 percent 
of the U.S. fighter fleet could be composed of F-35 aircraft by 2035.
    No fighter aircraft engine has ever been required to do what the F-
35 engine is required to do--provide powered flight and also power a 
lift fan for the short takeoff and vertical landing F-35B. Secretary 
Gates placed the F-35B on ``probation,'' requiring redesign of the F-
35B unique engine components. The current estimate to complete 
development of the F135 primary engine has been extended several years 
and the estimated cost to complete the development program is 450 
percent above the February 2008 estimated completion cost. Five months 
into fiscal year 2011, the fiscal year 2010 engine contract has yet to 
be signed. The F-35 primary engine has, as of the end of 2010, 680 
total flight test hours and has 90 percent of its flight testing to go.
    <bullet>  Do you believe your testimony provides a balanced 
representation of the risks in programs costs as well as operational 
risks to DOD of dependence on a single engine source for the F-35 for 
up to 95 percent of the future U.S. fighter fleet?
    <bullet>  How many single engine fighter aircraft, by type and 
quantity, are there in the U.S. inventory at present and what percent 
of the primary active and total active inventory do they represent of 
the total fighter force?
    <bullet>  Please provide the major/Class A accident rates for these 
aircraft for the past five and ten years through FY 10 or CY2010. Also, 
please provide the major/Class A accident rates for these aircraft for 
the past five and ten years, with the primary cause being the engine, 
through FY/CY 10. Finally, please provide what the experience has been 
with the DOD single engine aircraft with regard to groundings related 
to the engine of more than one aircraft at a time?
    Admiral Mullen. [The information was not available at the time of 
printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. I have re-introduced the compromise version of H.R. 
44 which eliminates the payment of claims to descendants of those that 
suffered personal injury during the occupation. Can we expect the same 
level of support from the Department of Defense as we did in the 111th 
Congress? The people of Guam are being asked to provide additional land 
for a firing range and the main base area and resolution of Guam war 
claims is going to be critical to overcoming historical injustices.
    Secretary Gates. [The information was not available at the time of 
printing.]
    Ms. Bordallo. U.S. Force Realignment in Japan
    <bullet>  Given the strategic importance of Guam and our nation's 
on-going efforts to re-shape our military presence in the Pacific 
theater, can you tell me what the status is of the Department of 
Defense's roadmap for realigning U.S. forces in Japan?
    <bullet>  Specifically, how is the reconfiguration of the Camp 
Schwab facilities and the adjacent water surface areas to accommodate 
the Futenma Replacement Facility project proceeding?
    <bullet>  When can we expect to see tangible progress on Okinawa 
for a Futenma Replacement Facility?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Ms. Bordallo. I was pleased to see about $200 million in research 
and development for a next generation bomber. I think this is a key 
platform to maintaining a robust long range strike capability.
    <bullet>  Can you explain the rationale behind your decision to 
build a long range manned bomber with the ability to penetrate defended 
air space?
    <bullet>  Why is standoff insufficient to meet future Combatant 
Command requirements?
    <bullet>  What are the inherent limitations within our existing 
legacy bomber fleet?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Ms. Bordallo. Army & Marine Corps Equipment Reset
    <bullet>  Please put the Fiscal Year 2012 budget request for 
equipment reset for the Army and Marine Corps in context with the 
Fiscal Year 2011 President's budget request and the continuing 
resolution being discussed today, or if the Department were forced to 
continue with a year-long Continuing Resolution at Fiscal Year 2010 
funding levels.
    <bullet>  Please discuss the movement of depot maintenance funding 
from Overseas Contingency Operations to the base budget.
    Secretary Gates. [The information was not available at the time of 
printing.]
    Ms. Bordallo. What guidance were the services given to distinguish 
between base and O-C-O budget reset?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Ms. Bordallo. Given the high level of attention the CENTCOM theater 
continues to receive due to on-going combat operations, I am concerned 
that we may have inadvertently created unnecessary risk in our Pacific 
Theater readiness, capabilities, and particularly in our I-S-R capacity 
because of a CENTCOM focus.
    <bullet>  Given the number of threats in the Pacific area of 
operations what are we doing to address these risks?
    Admiral Mullen. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MILLER
    Mr. Miller. Affordable F-35 recapitalization is dependent on 
capturing economies of commonality and scale as quickly as possible. 
Yet, basic economics tells us that if you continue to reduce the number 
of aircraft, unit costs will grow. This does concern me.
    <bullet>  What actions will the Department take to help ensure that 
this critical 5th generation aircraft does not quickly become another 
B-2 or F-22?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Miller. You expressed the Department's support for an 
amphibious assault capability for the Marine Corps, and suggested that 
a plan exists to fill that capability gap; however, we have been asked 
to cancel the EFV without seeing a detailed plan for replacing the 40+ 
year old AAV. The Marine Personnel Carrier does not offer a ship-to-
shore capability, and the obsolete AAV is incapable of providing the 
swift, over the horizon delivery needed to conduct amphibious 
operations in the face of modern threats.
    <bullet>  When will we see a detailed plan for an AAV replacement?
    Secretary Gates. [The information was not available at the time of 
printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. HEINRICH
    Mr. Heinrich. I was pleased to see the FY12 budget reflect the 
Administration's commitment to modernizing the nuclear weapon 
infrastructure.
    The $1.2 billion increase over FY10 will make the necessary 
investments to ensure our laboratories have the resources they need to 
maintain our nuclear deterrent while helping secure loose nuclear 
material around the world.
    This is in stark contrast to the Continuing Resolution which 
includes a $325M cut to weapons activities and a $647M cut to nuclear 
nonproliferation.
    <bullet>  How would the funding levels included in the CR impact 
NNSA's modernization plans and our ability to meet our obligations 
under the New START Treaty?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Heinrich. I also have serious concerns about how the CR will 
impact civilian assistance on the ground in Afghanistan.
    The State Department and the U.S. Agency for International 
Development would face over a 20 percent reduction when compared to the 
President's FY11 request.
    <bullet>  How would the funding levels in the CR impact the front 
lines in Iraq, Afghanistan and Pakistan where our civilians are working 
side by side with our military?
    Admiral Mullen. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. Your proposal includes several measures aimed at 
reducing the cost of providing health care to our service members and 
their families and military retirees. While I appreciate that your plan 
is a more comprehensive approach than previous cost cutting efforts, 
the challenge here is finding the balance between fiscal responsibility 
while maintaining a viable and robust military health system. We must 
be sure to remember these proposals have complex implications and go 
`beyond beneficiaries.' They also will affect the people such as 
pharmacists, hospital employees and vendors who support the defense 
health system. The military health system has a robust acquisition 
workforce within the TRICARE Management Activity that appears to 
replicate the acquisition expertise in other Defense agencies such as 
the Defense Acquisition, Technology and Logistics and Defense Logistic 
Agencies.
    <bullet>  Why does the military health system need its own 
acquisition workforce?
    <bullet>  How much money would you save by embedding medical 
expertise in existing Defense acquisition agencies?
    Secretary Gates. [The information was not available at the time of 
printing.]
                                 ______
                                 
                QUESTIONS SUBMITTED BY MR. RUPPERSBERGER
    Mr. Ruppersberger. Regarding the cancellation of the F-22, given 
the recent Chinese developments, please discuss the recent developments 
in 5th generation technologies and the need to invest in 5th gen 
aircraft.
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Ruppersberger. F-35 is slated to ramp up production to over 20 
aircraft a month. Given that the Independent Manufacturing Review Team 
you chartered came to the conclusions that the industry team is 
currently capable of producing between 48 and 60 aircraft per year and 
that a production ramp up of 1.5X per year is optimum, please discuss 
the decision to produce only approximately 32 aircraft for three 
straight years?
    <bullet> Does this achieve production efficiency?
    Secretary Gates. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. Though the National Nuclear Security Administration 
(NNSA) falls under the Department of Energy and it's largely non-
security budget, can you please discuss NNSA's role in meeting our 
nation's national security needs?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Turner. In your preface to the April 2010 Nuclear Posture 
Review, you ``asked for nearly $5 billion to be transferred from the 
Department of Defense to the Department of Energy over the next several 
years.'' Can you discuss why this was necessary and how you prioritize 
this investment?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Turner. As stated in the April 2010 Nuclear Posture Review, 
President Obama ``has directed a review of potential future reductions 
in U.S. nuclear weapons below New START levels.''
    <bullet>  Have you received such direction?
    <bullet>  What conditions would the Department of Defense need to 
see met in order to consider further reductions beyond New START 
levels?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Turner. When the White House announced the Phased Adaptive 
Approach (PAA) to missile defense in Europe last September, it said the 
new approach was based upon an assumption that the long-range missile 
threat was ``slower to develop.'' However, in comments last month, you 
both expressed concern about the pace of North Korea's ICBM and nuclear 
developments.
    <bullet>  Do you have a similar assessment of Iran's missile and 
nuclear programs?
    <bullet>  Also, as discussed in the Ballistic Missile Defense 
Review, what hedging strategy will you pursue to defend the U.S. 
homeland in case the threat comes earlier or the new Next Generation 
Aegis Missile has technical problems?
    <bullet>  At what point would the Department make a decision to 
employ the hedge?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Turner. In 2006, the Director of National Intelligence issued a 
five-year strategic human capital plan that pointed to a number of gaps 
in mission-critical areas of analysis and human intelligence. Among the 
recommendations, the report called on looking at the needs of the 
``total force''--including civilians, military members, contractors, 
and international and academic partners.
    <bullet>  What is the Defense Department doing to meet the growing 
demands for trained military, civilian, and contractor workers who 
perform intelligence analysis?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Turner. Research and development, testing, and training for 
Unmanned Aerial Systems to meet national defense needs have been 
hampered for many years by lack of special use airspace. Of course, the 
safety of our airspace is paramount. But there is a growing feeling 
that national defense needs are being compromised by this impasse.
    <bullet>  What is the Department of Defense doing to expedite the 
integration of UAS into the National Airspace?
    <bullet>  Do you recommend any changes in regulation, statute, or 
agreements between the Defense Department and the FAA in order to 
expedite the process--to meet both safety and national defense needs?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Turner. The National Defense Authorization Act of 2008 required 
that a flexible personnel practice available to one defense laboratory 
under the Laboratory Personnel Demonstration Project should be 
available for use at any other laboratory.
    <bullet>  Can you tell us how many defense laboratories have taken 
advantage of this provision?
    <bullet>  How can the Department better implement this authority to 
improve the flexibility of personnel practices in Defense laboratories?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Turner. Recent Department of Defense reports indicate an 
increase in sexual assaults in the Armed Services and Military 
Academies. This increase highlights an urgent need for improvements to 
the way Defense Department officials respond to sexual assault cases. 
Below is a list of improvements that I feel are necessary to safeguard 
against military sexual assault and protect its victims.
    <bullet>  What is the Department's position on providing the 
following rights to victims of sexual assault (please explain):
        o  Victim Access to Judge Advocate General (JAG) and privileged 
        communication with a Victim Advocate.
        o  Professionalize and standardize sexual assault programs 
        based on what we have already learned from the success of Equal 
        Employment Opportunity program at the DOD.
        o  Require a Sexual Assault training module at each level of 
        Professional Military Education (PME).
        o  Provide a mechanism for expedited consideration and priority 
        for base transfers.
        o  Provide a system of data collection on sexual assaults, 
        reported assaults, and for the ongoing quality of performance 
        of victims after the assault.
        o  Giving a victim advocate more independence from the victim's 
        chain of command.
        o  Adopt measures that truly create separation between the 
        victim and the alleged perpetrator at the base level, and not 
        merely accept separation ``on paper.''
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Turner. As stated in the April 2010 Nuclear Posture Review, 
President Obama ``has directed a review of potential future reductions 
in U.S. nuclear weapons below New START levels.''
    <bullet>  Have you received such direction?
    <bullet>  What conditions would the Department of Defense need to 
see met in order to consider further reductions beyond New START 
levels?
    Admiral Mullen. [The information was not available at the time of 
printing.]
    Mr. Turner. When the White House announced the Phased Adaptive 
Approach (PAA) to missile defense in Europe last September, it said the 
new approach was based upon an assumption that the long-range missile 
threat was ``slower to develop.'' However, in comments last month, you 
both expressed concern about the pace of North Korea's ICBM and nuclear 
developments.
    <bullet>  Do you have a similar assessment of Iran's missile and 
nuclear programs?
    <bullet>  Also, as discussed in the Ballistic Missile Defense 
Review, what hedging strategy will you pursue to defend the U.S. 
homeland in case the threat comes earlier or the new Next Generation 
Aegis Missile has technical problems?
    <bullet>  At what point would the Department make a decision to 
employ the hedge?
    Admiral Mullen. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. JOHNSON
    Mr. Johnson. Do you believe your successor should commit to 
following the recent efficiency initiative with further efficiency 
drives to maintain momentum in cost-cutting and reform of the 
Department of Defense?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Johnson. Do you anticipate that any U.S. forces will remain in 
Afghanistan in 2017? If you do not explicitly answer in the 
affirmative, I will presume that the Department of Defense plans and 
anticipates to remove all U.S. forces from Afghanistan by 2017.
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Johnson. I am aware you have outlined several criteria for 
reconciliation of Taliban and anti-government forces in Afghanistan, 
including renunciation of al Qaeda, acceptance of the Afghan national 
constitution, and renunciation of violence.
    <bullet>  Can you provide detailed information regarding specific 
reconciliation outreach efforts to Taliban fighters for each ISAF 
Regional Command?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Johnson. Can your end force strength goals for the middle of 
the next decade be reconciled with your commitment to fairer dwell 
times for our men and women in uniform?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Johnson. Do you assess that cancelling the F-35 second engine 
program would pose any operational risk in the event the primary engine 
were stricken by unforeseen, widespread failures?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Johnson. When will DDG-1000 hulls #2 and #3 be put under 
contract?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Johnson. Why will full ship shock trials of the Littoral Combat 
Ship not be conducted on hulls #1 or #2, in light of persistent 
questions raised by the Department of Operational Testing & Evaluation 
regarding whether LCS meets its Level 1 Survivability requirements?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Johnson. General Spencer on January 14, 2011, stated the 
importance of securing the ``global commons'' as a defense priority of 
the U.S., signaling our continued commitment as the world's primary 
defender of key trade routes.
    <bullet>  How can we share this burden among our allies and 
emerging powers to spare the U.S. taxpayer from footing the full bill 
for global security?
    Admiral Mullen. [The information was not available at the time of 
printing.]
    Mr. Johnson. Is less than 200 F-22s adequate to ensure U.S. air 
superiority for the next three decades?
    Admiral Mullen. [The information was not available at the time of 
printing.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. KLINE
    Mr. Kline. The United States Government has been operating from the 
same NRO Charter for 46 years. I understand the Department intends to 
produce a Directive rather than a Charter as required. We began this 
process over 2 years ago. The Charter was not delivered by the February 
1, 2010 deadline. In last year's Armed Services Committee defense 
posture hearing (February 3, 2010), I asked you when the Department 
intended to complete the Charter. I am concerned that it has been more 
than a year, and a Charter has still not been delivered in accordance 
with legislative requirements. Our committee has received conflicting 
information from the Department as to whether we will receive the 
Charter, a DOD Directive in place of the Charter, or no additional 
product whatsoever because the MOA essentially serves as the Charter. 
The law requires a Charter, not an MOA or Directive.
    <bullet>  The FY10 NDAA required the Department of Defense and the 
DNI to submit a revised NRO charter by Feb 1, 2010 to the Committee on 
Armed Services. It is now 2011, where is the Charter?
    <bullet>  If the Department intends to comply with the law, when 
will the actual Charter be delivered to the Committee?
    <bullet>  If the Department will issue a product other than the 
Charter, please provide that intent in writing as well as details on 
when the Committee should expect to receive such a product.
    Secretary Gates. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SUTTON
    Ms. Sutton. I'd like to hear from you about funding levels for the 
DOD Office of Corrosion Policy and Oversight and how the budget 
reflects the importance of this issue. A key component of modernizing 
our infrastructure, preserving our military assets, and saving money in 
the process is adopting a robust corrosion prevention and mitigation 
strategy. It is not a glamorous topic, but it's one that is worth our 
time and attention, especially given the potential savings if we 
address it in a smart and appropriate way.
    <bullet>  Given the demonstrated successes of this corrosion 
office, how do you foresee the proposed funding level supporting the 
future role of this office, and what are the intentions for the 
evolution of this work within DOD in the future?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Ms. Sutton. The Navy estimates that executing the 30-year 
shipbuilding plan would require an average of $15.9 billion per year, 
however a May 2010 Congressional Budget Office (CBO) report estimates 
that figure to be an average of $19 billion per year--or about 18% more 
than the Navy estimates. The CBO report states that if the Navy 
receives an average of about $15 billion a year in 2010 dollars in the 
next 30 years--it will not be able to afford all the purchases in the 
2011 shipbuilding plan.
    <bullet>  Given the proposals for minimal to no real budget growth 
in the upcoming years, are you concerned with the Navy's ability to 
reach its required force structure? How will this affect the Navy's 
shipbuilding plan?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Ms. Sutton. I believe that one of our priorities should be to 
consider how our decisions and policies impact the welfare of service 
members and their families. Reduced dwell time and stop loss are two 
situations that have caused much strain for our military. One of the 
proposals is the reduction of the permanent end strength of the Active 
Army and Marine Corps.
    <bullet>  Do you anticipate that these cuts will reduce the amount 
of dwell time for our soldiers or risk a return to the utilization of 
the stop-loss for our soldiers?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Ms. Sutton. I believe that one of our priorities should be to 
consider how our decisions and policies impact the welfare of service 
members and their families. Reduced dwell time and stop loss are two 
situations that have caused much strain for our military. One of the 
proposals is the reduction of the permanent end strength of the Active 
Army and Marine Corps.
    <bullet>  Do you anticipate that these cuts will reduce the amount 
of dwell time for our soldiers or risk a return to the utilization of 
the stop-loss for our soldiers?
    Admiral Mullen. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. When the Phased Adaptive Approach was first introduced, 
deadlines for each phase were set under the impression that long-range 
missile threats were ``slow to develop.'' Recently you made remarks 
that suggest North Korea's ICBM and nuclear developments are proceeding 
faster than expected. This raises concerns that the PAA will not be 
available to defend against long-range ICBMs before North Korea 
develops this capability.
    <bullet>  In the interim, there must be a hedging strategy. Please 
identify the hedging strategy you will pursue to defend our Nation's 
Homeland in the event that North Korea or another rogue nation acquires 
ICBM capability earlier than expected or if the new Next Generation 
Aegis Missile has technical problems.
        o  Particularly, does the GMD two stage interceptor remain a 
        realistic and flexible hedge against these advancing threats?
        o  Also, what is the timeline for a decision on this strategy?
    <bullet>  Furthermore, do you have an assessment of other nations' 
timeline of achieving ICBM and nuclear capabilities able to threaten 
our homeland, particularly Iran's program.
        o  If not, what is being done to make an accurate assessment of 
        their developments?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Franks. Concerns about whether the New START Treaty limited 
missile defense figured prominently in the Senate's debate on the 
Treaty. You both continue to engage in missile defense discussions with 
your Russian counterparts.
    <bullet>  Please describe the nature of those discussions and what 
you see as areas of concern.
        o  Particularly, do you find the lack of agreement in the 
        interpretation of the preamble as having unforeseen 
        consequences for a Missile Defense Capabilities?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Franks. The Ground-based Midcourse Defense (GMD) system in 
Alaska and California is currently the only missile defense system that 
protects the United States homeland from long-range ballistic missile 
attacks. However, the last two flight intercept tests of the GMD system 
failed to achieve intercept.
    <bullet>  What actions and/or investments do you believe are 
necessary to ensure GMD is a reliable and operationally effective 
system to protect the U.S. homeland against evolving threats?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Franks. Have you seen any changes among our allies in Europe or 
elsewhere on their view of U.S. extended deterrence and the role the 
U.S. nuclear weapons in providing that extended deterrence guarantee? 
If so, please discuss these changes.
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Franks. Concerns about whether the New START Treaty limited 
missile defense figured prominently in the Senate's debate on the 
Treaty. You both continue to engage in missile defense discussions with 
your Russian counterparts.
    <bullet>  Please describe the nature of those discussions and what 
you see as areas of concern.
        o  Particularly, do you find the lack of agreement in the 
        interpretation of the preamble as having unforeseen 
        consequences for a Missile Defense Capabilities?
    Admiral Mullen. [The information was not available at the time of 
printing.]
    Mr. Franks. The Ground-based Midcourse Defense (GMD) system in 
Alaska and California is currently the only missile defense system that 
protects the United States homeland from long-range ballistic missile 
attacks. However, the last two flight intercept tests of the GMD system 
failed to achieve intercept.
    <bullet>  What actions and/or investments do you believe are 
necessary to ensure GMD is a reliable and operationally effective 
system to protect the U.S. homeland against evolving threats?
    Admiral Mullen. [The information was not available at the time of 
printing.]
    Mr. Franks. Have you seen any changes among our allies in Europe or 
elsewhere on their view of U.S. extended deterrence and the role the 
U.S. nuclear weapons in providing that extended deterrence guarantee? 
If so, please discuss these changes.
    Admiral Mullen. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. I applaud you for your decision not to proceed to 
procurement of the MEADS missile defense system. As noted in the DOD 
memo, the program is substantially over budget and behind schedule. It 
would take an additional $974M just to complete the Design and 
Development of the program. It does not make sense to continue to waste 
$800 hundred million on a system we are not going to procure.
    <bullet>  Will DOD go back to the drawing board and try to find a 
way to ring out some additional savings out of this $800M for MEADS? 
Will you ask your team to brief me on what this $800M is for, and if we 
can least find some more substantial savings?
    <bullet>  The DOD memo indicates that it will be necessary to 
allocate funds for Patriot upgrades. At a minimum, will DOD work to 
reallocate funds for Design and Development for upgrades to the Patriot 
system?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Shuster. In the Memo accompanying your recent decision not to 
proceed to procurement of MEADS, you specifically highlighted the 
Army's inability to afford to procure MEADS and make required Patriot 
upgrades as rationale for the decision. I agree wholeheartedly with 
that assessment and commend you on your decision. It is vital that we 
continue to upgrade the Patriot system, which can provide added 
capability much sooner and at a fraction of the cost.
    <bullet>  In light of your decision and the vital importance of air 
and missile defense; can you please provide any insight on accelerating 
Patriot modernization?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Shuster. Azerbaijan is an important partner of the United 
States and Israel in the region. It has contributed troops and 
resources to our missions in Afghanistan, Iraq and Kosovo; and the 
country is a key component of the Northern Distribution Network. 
Azerbaijan was first to open Caspian energy resources to U.S. companies 
and has emerged as a key partner for diversifying European energy 
markets. Azerbaijan also cooperates closely with the United States in 
the areas of intelligence sharing, counterterrorism, non-proliferation 
of weapons of mass destruction, and counternarcotics trafficking. The 
importance of Azerbaijan will only continue to grow, particularly given 
rising tensions with Iran.
    <bullet>  How would you describe the current level of military 
cooperation between the United States and Azerbaijan, as well as your 
future expectations for that cooperation? What steps must the United 
States and Azerbaijan take to further strengthen this relationship?
    <bullet>  Section 907 of Freedom Support Act of 1992 limits the 
U.S. Government's ability to provide direct assistance to the 
Government of Azerbaijan. In what ways does this interfere with the 
Department of Defense's long-term planning regarding Azerbaijan and its 
efforts to deepen bilateral relations with respect to security and 
defense matters?
    Secretary Gates. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. Regarding the F-35 alternate engine, both the 
Pentagon's F-35 acquisition strategy documents, one completed 10 years 
ago and an update completed 2 years ago noted:
        ``to preclude excessive reliance on a single engine supplier, 
        an alternate engine program was established.''
    The F-35 acquisition strategy document published in December 2008, 
nearly three years after the Pentagon quit requesting funding for the 
F136 stated that:
        ``dependent on F136 propulsion system maturity and funding 
        availability . . . the goal is to reach full competition 
        between Pratt & Whitney and GE in FY12 or 13''
    In addition, the most recent business case analysis completed by 
the Department of Defense indicated the competitive engine is at the 
breakeven point in net present value.
    <bullet>  Given the Department's acquisition strategy documents' 
concerns on excessive reliance on a single contractor to provide the F-
35 engine, the stated goal of reaching full competition between the two 
manufacturers, and the business case analysis stating it was no more 
expensive to have a competitive engine, why are you so opposed to the 
alternate engine?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Conaway. In January, you announced a significant reduction in 
the original order for F-35s for the FYDP. According to your statement, 
a reduction of 124 F-35s, bringing the total to 325, will pay for the 
$4.6 billion needed to extend the development period and adding 
additional flight tests. You further stated that an additional $4 
billion from this reduction will be used for other purposes, such as 
acquiring more F/A-18s, one of the planes the F-35 is supposed to 
replace. Furthermore, you have stated the impact of removing 124 F-35 A 
& C variants from the FYDP will have little impact to unit cost over 
the life of the program. I am concerned about the impact to unit cost 
this reduction will have to the remaining A and C variants throughout 
the FYDP.
    <bullet>  Given the information about the progress of the Chinese 
stealth fighter aircraft technology, what is the justification for 
cutting 124 fifth generation F-35s and buying 41 additional obsolete 
fourth generation aircraft?
    <bullet>  Please comment on the immediate or near term cost impacts 
of the reduction?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Conaway. In the recent restructuring of the F-35 program, the 
F-35B, was put on a two year probation. It is my understanding that the 
technical issues on this variant appear to be typical at this stage in 
a development program.
    <bullet>  Would you remove the F-35B variant from probation before 
the FY13 budget submission if the aircraft's performance improves?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Conaway. The requirement for the ship to shore distance for the 
Expeditionary Fighting Vehicle was 25 miles. Now, the Marine Corps and 
the Navy have stated the requirement now is more like 12 to 25 miles.
    <bullet>  Can you please elaborate for the committee what the new 
ship to shore requirement will be for a potential New Amphibious 
Vehicle?
    Secretary Gates. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. What steps is the Department of Defense taking to 
eliminate our military's dependence on China for critical rare earth 
elements? How is the Department of Defense helping to reestablish a 
viable domestic supply chain?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Coffman. The FY2011 National Defense Authorization Act required 
a report that evaluates supply options, determines aggregate defense 
demand, and establishes a plan to address vulnerabilities in the area 
of rare earth elements. The Defense Logistics Agency (DLA) Strategic 
Materials Stockpile--formerly the national stockpile center--has a 
successful program that can easily include stockpiling critical rare 
earth metals and alloys.
    <bullet>  What thought have you given to this?
    <bullet>  Do you agree that the DLA office has a key role to play 
in the required report and plan?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Coffman. In November 2010, I was informed by senior Department 
of Defense officials that our reliance on China for rare earth oxides, 
metals, alloys, and magnets did not constitute a national security 
threat. Officials from the Office of Industrial Policy noted that the 
Department of Defense was a small user and that they could not 
aggregate the Department's demand and usage of these materials.
    <bullet>  If the Department of Defense uses 7% of total rare earth 
demand, as noted by senior officials, aren't you still concerned if you 
cannot access that 7%?
    <bullet>  DoD representatives noted that new sources of supply for 
rare earth elements will be coming online in late 2011 and 2012. Has 
the Office of Industrial Policy taken note that the majority of this 
new supply is committed to non-U.S. sources such as Japan, who may not 
provide this material to the U.S. defense supply-chain, instead opting 
to supply the larger commercial market?
    <bullet>  If so, how can you conclude there is no national security 
risk if you cannot guarantee access to the rare earth oxides, metals, 
alloys, and magnets needed by the Department of Defense?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Coffman. Given that we are engaged in two protracted wars, how 
would you characterize the performance and practicality of the all-
volunteer force?
    <bullet>  Do you have any concerns regarding the future of the all-
volunteer force?
    Secretary Gates. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GRIFFIN
    Mr. Griffin. Section 1243 of the Ike Skelton National Defense 
Authorization Act for FY11 states: ``The Secretary of Defense shall 
develop a strategy to be known as the `National Military Strategy to 
Counter Iran.' '' Among other requirements, the NDAA mandates that this 
strategy ``undertake a review of the ability of the Department of 
Defense to counter threats to the United States, its forces, allies, 
and interests from Iran,'' and specifically requires the Secretary to 
brief Congress within 180 days of the NDAA's enactment ``regarding any 
resources, capabilities, or changes to current law'' he believes are 
necessary to address any gave identified in the strategy.
    <bullet>  Is the Joint Staff currently preparing this strategy, 
which will be a high priority for this committee and receive as much or 
greater attention as any military report we receive?
    <bullet>  Will we receive this report within the mandated 180 day?
    Admiral Mullen. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PALAZZO
    Mr. Palazzo. The Navy estimates that its average annual 
shipbuilding requirement is $15 billion per year to attain its minimum 
floor of 313 battle-force ships. However the Congressional Budget 
Office (CBO) estimates that the Navy will require, on average, $19 
billion per year to attain its minimum floor of 313 ships.
    <bullet>  Given that there will be minimal to no real budget growth 
in the upcoming years, are you concerned with the Navy's ability to 
reach its required force structure?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Palazzo. As you know, the Chief Financial Officers Act of 1990 
requires that all Federal Agencies perform a financial audit each year. 
The DOD has not complied and even the Government Accountability Office 
(GAO) has labeled the DOD's books as ``unauditable'' because of the 
complexity of this problem. Many people view this as a complete lack of 
accountability and transparency in one of our Government's largest 
agencies. Now colleagues of mine have even introduced legislation to 
cut portions of the DOD budget until the audits are complete.
    <bullet>  Has there been any recent attempt to correct this 
problem, change the accounting systems or develop a course of action to 
get this problem fixed? Is it reasonable to expect a full audit in the 
foreseeable future?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Palazzo. The role of the US military in recent years has had an 
increased focus on humanitarian response missions such as earthquake 
response in Haiti and response to the Indonesian tsunami. These 
contingency efforts, particularly by the Navy and Marine Corps due to 
their specific strengths and mobility, are changing the role of the 
force.
    <bullet>  Given these new requirements, what do you see as the 
future of the Navy and Marine Corps?
    <bullet>  Does this new focus on humanitarian missions weaken the 
force and our capability to respond to emerging threats such as China?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Palazzo. It is no secret that our National Guard has played an 
extremely important role in our military operations over the last 
decade, and as a national guardsman, I believe in the importance of 
thanking my fellow citizen soldiers and the families that make 
sacrifices every day to protect our great nation. In the past, 
proposals have been introduced to add a representative of the National 
Guard to the Joint Chiefs.
    <bullet>  Do you believe that this is a feasible and logical 
addition?
    <bullet>  How do you believe that adding a representative to the 
Joint Chiefs will affect the service chiefs and the role of the 
National Guard?
    <bullet>  Do you foresee any additional costs associated with this 
change?
    Admiral Mullen. [The information was not available at the time of 
printing.]
    Mr. Palazzo. The role of the US military in recent years has had an 
increased focus on humanitarian response missions such as earthquake 
response in Haiti and response to the Indonesian tsunami. These 
contingency efforts, particularly by the Navy and Marine Corps due to 
their specific strengths and mobility, are changing the role of the 
force.
    <bullet>  Given these new requirements, what do you see as the 
future of the Navy and Marine Corps?
    <bullet>  Does this new focus on humanitarian missions weaken the 
force and our capability to respond to emerging threats such as China?
    Admiral Mullen. [The information was not available at the time of 
printing.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. YOUNG
    Mr. Young. Our budget constraints are significant. ADM Mullen has 
described our debt as our nation's ``greatest national security 
challenge.''
    Within this environment, President Obama has proposed an increase 
in our defense budget--albeit a slight increase--over FY10 enacted 
levels. This comes on top of a doubling of defense expenditures over 
the last 12 years, in real inflation-adjusted dollars.
    Meanwhile, ADM Mullen's comments indicated that we ``must face the 
reality of less spending by our partners.'' Essentially, our allies are 
cutting spending and, one might say, free-riding off of our military 
investments.
    We, understandably, don't want to use our military to do more 
without more, or even ask it to do more with less.
    <bullet>  In light of our growing fiscal challenges and steady 
investments in defense, and steady disinvestment in defense by our 
allies, how do you respond to those who argue that our ambitions now 
outstrip our capacities to fund them at home and abroad?
    <bullet>  Aside from creating conditions for more robust economic 
growth, including reforming our nation's entitlement programs, might we 
also address the gap between our ambitions and capacities by scaling 
back our global commitments--i.e., by setting priorities among missions 
rather than by layering additional missions on top of existing missions 
(as we have done in recent history)?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Young. Regarding the alternate engine of the F-35, the Joint 
Strike Fighter (JSF), how do you refute the findings of the GAO study 
(GAO-09-711T, May 20, 2009) that savings generated from having a 
competitive engine would recoup or exceed investment costs across the 
life cycle of the engine, and that its non-financial benefits were 
enough to continue the program, even if considering only marginal 
financial benefits?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Young. Considering that 95 percent of our fighter force is 
projected to be comprised of F-35s within the next 25 years, how do you 
answer to concerns that our operational capabilities could be 
drastically compromised, as we would have very little redundancy in our 
fighter force, as we would be dependent upon one engine and vulnerable 
to a fleet-wide grounding?
    Secretary Gates. [The information was not available at the time of 
printing.]

                                  <all>

</pre></body></html>
